                               UNCLASSIFIED

          United States Department of State
        and the Broadcasting Board of Governors
                  Office of Inspector General




 Review of the Effectiveness and
         Implementation of
Office of Cuba Broadcasting’s New
        Program Initiatives


    Report Number IBO-A-03-01, January 2003




           This report has been reviewed pursuant to the
           Freedom of Information Act, 5 U.S.C. 552, for public
           release.

                                     IMPORTANT NOTICE

  This report is intended solely for the official use of the Department of State or the Broadcasting
  Board of Governors, or any agency or organization receiving a copy directly from the
  Office of Inspector General. No secondary distribution may be made, in whole or in part,
  outside the Department of State or the Broadcasting Board of Governors, by them or by
  other agencies or organizations, without prior authorization by the Inspector General.
  Public availability of the document will be determined by the Inspector General under
  the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil,
  or administrative penalties.



                                   UNCLASSIFIED
                                                            UNCLASSIFIED




                                     TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
     Table 1: OCB Purchase Order Vendors – FY 2000-FY 2002 . . . . . . . . . . . . . . . . . . . . . . . . 11
FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           13
     Effect of Programming Initiatives Is Unknown . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                    13
      Figure 1: Radio Marti Weekly Audiences by City – 1998-2001 . . . . . . . . . . . . . . . . . . . .                                             14
     Deficiencies Were Identified in Implementation of New Program Initiatives . . . . . . . . . . .                                                 18
       Figure 2. OIG Survey Results for Question on Current Duties. . . . . . . . . . . . . . . . . . .                                              19
     OCB Lacked Key Management Personnel and Quality Controls . . . . . . . . . . . . . . . . . . . .                                                32
       Figure 3. OIG Survey Results for Question on Morale . . . . . . . . . . . . . . . . . . . . . . . . .                                         34
LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39
APPENDIX
              A. Summary Results of OIG’s Survey of Radio and TV Marti, June 2002 . . . . . . . . . . . . . .                                        41
              B. OCB’s Web Site Home Page . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  45
              C. OIG Review of Selected OCB Purchase Order Files . . . . . . . . . . . . . . . . . . . . . . . . . . .                               47
              D. Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               53




OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003        69 .

                                                            UNCLASSIFIED
                                                            UNCLASSIFIED




                                   EXECUTIVE SUMMARY


Purpose

To assess the effectiveness of the Office of Cuba Broadcasting (OCB) program-
ming changes and to respond to the International Broadcasting Bureau’s (IBB)
request for an assessment of the implementation of these program changes, the
Office of Inspector General (OIG) reviewed information on audience listenership
and evaluated OCB policies and procedures for acquiring additional contractor
resources. The primary objectives of the review were to determine what the new
programming changes were, whether they had increased the audience size, and how
well OCB had implemented the changes, particularly whether OCB was in compli-
ance with government regulations, especially those governing the hiring of talent
contractors.

Background

At the end of July 2001, a new administration took over the management of OCB.
The new director instituted a number of initiatives, including the redesign and
expansion of Radio Marti news and programs and developed an OCB master
broadcasting plan. The new strategy is aimed at appealing to as many listeners as
possible, especially Cuban youth and traditionally under-represented groups such as
Afro-Cubans. In addition, under its new director, OCB responded to the
President’s May 18, 2001, commitment to “strengthen the voices of Radio and TV
Marti.” OCB revamped its web site and began streaming both radio and television
to Internet users, a particularly important change since the Cuban government has
consistently jammed OCB transmissions to Cuba.

    Beginning in January 2002, OIG received complaints of alleged irregularities in
the way overall change was being implemented, particularly the increased use of
commercial talent vendors. Similar allegations later appeared in the local Miami
media. This prompted IBB to request an OIG review of the situation. About this
time, in a congressional hearing concerning Radio and TV Marti, questions were
also being raised about the validity of recent audience research studies purporting
to show a sudden and significant increase in audience size for Radio Marti.



OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   1 .

                                                            UNCLASSIFIED
                                              UNCLASSIFIED



           In June 2002, the OCB Office of Administration reported that there were 163
      full-time government employees working in Miami and 200 contractors, some who
      were only used intermittently, throughout the year. Radio Marti was using 111
      contractors, of whom 44 were contracted for the first time after August 1, 2001,
      under the new OCB director. By the end of April 2002, spending for Radio and
      TV Marti contractors was over $2 million. Total spending on contractors for fiscal
      years FY 2000 and FY 2001 was about $1.1 million and $1.8 million, respectively.

      Results in Brief

      The new Radio Marti programming initiatives instituted by the OCB director after
      July 2001 seemed to be targeting important new audiences in Cuba; however, it was
      too early to determine the impact of these new programs on increasing the number
      of Cuban listeners. Available information on listenership in Cuba was inconclusive
      concerning whether program changes in Radio and TV Marti had a positive impact
      on the Cuban audiences. New audience research planned for late 2002 and 2003
      may provide a better indication of the overall impact of the new OCB program-
      ming. In the meantime, OCB could use other approaches, such as audience mail
      and telephone calls from listeners, to assess the impact of its programming.

          The new initiatives enacted by the OCB director after July 2001 are generally
      positive; however, OIG documented a number of deficiencies in their implementa-
      tion. OCB did not conduct a systematic personnel needs assessment before con-
      tracting out for talent to meet its new programming requirements. In addition, the
      practices and procedures involving the hiring and use of talent contractors were
      inappropriate and inadequate. OIG documented some violations of government
      procurement requirements and actions that created an appearance of favoritism.

          Since his arrival, the OCB director has operated without some key management
      personnel who might have been able to provide him with guidance on government
      rules and regulations, particularly, a chief of staff and a Radio Marti director.
      Although a chief of staff worked for a brief period, the Radio Marti director
      position remained vacant. OIG believes that the absence of these key individuals
      contributed to the administrative irregularities concerning the use of talent contrac-
      tors. Additionally, the lack of some important OCB internal controls may have
      exacerbated these problems.




2 .            OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                              UNCLASSIFIED
                                                            UNCLASSIFIED



Principal Findings

Since the end of July 2001, under the new director, OCB has implemented a
number of new initiatives, including expanded news coverage and a revamped
program lineup for Radio Marti. Important new radio programs are targeting new
audiences in the Afro-Cuban community and Cuban military. With regard to news,
Radio Marti redesigned and expanded its newscasts and bulletins. According to the
OCB director, these changes represented a doubling of news programming since his
arrival at OCB. Some Radio Marti officials did not agree with this claim.

    An OIG analysis comparing the amount of news during three days before the
new director arrived with three days after he had made changes found that the
increase in news programming was 40 percent. Because of the limited number of
days in the OIG sample, the results of the analysis have a low level of confidence
regarding the reliability of the specific percentage change. However, OIG is
confident that the results are an indicator that Radio Marti news programming did
increase, but may not have doubled.

    At present, there are several sources of audience listening data for Radio and
TV Marti, including IBB audience research, U.S. Interests Section surveys, and
independent studies by journalists in Cuba. All have their limitations given the
closed nature of the Cuban society. The latest IBB audience research was con-
ducted before the OCB new programming initiatives were fully implemented.
Nevertheless, the available IBB listener data showed that Radio Marti remains the
most listened to foreign station among respondents, even though regular listening
has declined from nine percent to five percent. According to IBB, in September
and October 2002, it held focus groups for OCB that yielded insights from recent
Cuban arrivals on their media and listening habits. Also, for 2003 IBB planned new
research approaches to collect audience data on Radio and TV Marti.

    Regarding Cuban listener reaction to Radio Marti provided by the U.S. Interests
Section in Havana, officials there said that recent reactions to Radio Marti news
and interviews have been good. For example, the latest survey of Cuban visa
applicants showed a 94 percent listener rate; however, these types of surveys have
limited audience research value because the sample group is formed of people
seeking entrance into the United States and is potentially biased. IBB audience
research terms this kind of group “self-selecting.” In addition, a survey of Radio
Marti listeners conducted in January 2002 by a group of independent journalists in
Cuba showed a more than 90 percent daily listening rate. However, because of
limitations in the sample group, IBB and OIG concluded that the findings could not
be extrapolated to the broader population.


OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   3 .

                                                            UNCLASSIFIED
                                              UNCLASSIFIED



           In its draft strategic plan, the Broadcasting Board of Governors (BBG) stresses
      the importance of a research-based approach to programming for all BBG entities.
      However, OIG found that OCB was not using research or internal review mecha-
      nisms to guide its programming decisions. For example, of the 15 new programs
      initiated by the OCB director, most were not subjected to any formal evaluation or
      program review. With greater emphasis on the use of audience research by BBG
      broadcast entities, it is important that OCB take audience research into account,
      even with its limitations, as it makes programming decisions.

          In this regard, OCB might benefit from using additional sources of information
      to determine audience needs and reactions. For example, OIG believes that OCB
      would benefit from systematically tracking mail and telephone calls from listeners
      and using the information in making programming decisions. While this could
      provide a useful tool to supplement formal audience research methods, it should
      not be a substitute for conducting scientific audience research.

           There were a number of deficiencies in the implementation of new program-
      ming changes. OCB did not perform a formal personnel needs assessment before
      increasing the ranks of talent contractors to meet new programming requirements.
      In addition, the practices and procedures involving the hiring and use of contrac-
      tors were inappropriate and inadequate. OIG documented a number of violations
      of government procurement regulations and actions that created an appearance of
      favoritism. Specific areas of deficiency included inadequate competition for
      contractors, the improper use of contractors as personal service contractors, the
      alleged inequitable treatment of contractors, and various administrative problems
      in processing requests for, and approving payments to, talent contractors. Before
      OIG’s review, the IBB Office of Contracts conducted a similar review of purchase
      orders, purchase order modifications, and invoices for selected contractors. The
      Office of Contracts reported that it did not find any serious procurement “deficien-
      cies,” but identified several procurement “shortcomings.” According to OCB, it
      had taken or was taking action to correct these shortcomings. Although these
      measures would also correct some of the administrative deficiencies identified by
      OIG, OIG found other areas of deficiency that IBB did not cover in its review,
      such as the use of talent vendors as personal services contractors.

          OCB lacked key management personnel and internal controls. Since his arrival,
      the OCB director operated without some key management personnel, particularly a
      chief of staff and a Radio Marti director, who might have been able to provide him
      with guidance on government rules and regulations. Although a chief of staff
      worked for a brief period, the Radio Marti director position remained vacant. In



4 .            OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                              UNCLASSIFIED
                                                            UNCLASSIFIED



July 2002, the OCB director said that he had named someone for the chief of staff
position; in August 2002, OCB formally issued a vacancy announcement for the
Radio Marti director position.

    OCB lacked programming quality control structures. In the past, it had an
internal committee to review new programming. In November 2001, the OCB
director disbanded the program review committee after it twice rejected a new
show he had proposed. In July 2002, the OCB director said that he planned to
reconstitute the committee. In the meantime, 13 shows went on the air without
any formal internal review. OCB had a daily editorial review meeting for news, but
members questioned its effectiveness. At the conclusion of OIG’s review, the
OCB director said that he planned to establish a new editorial board for Radio
Marti.

    Another inactive quality control structure was the Presidential Advisory Board
for Cuba.1 It had been inactive since February 1998. OIG believes that the
Advisory Board could provide an important oversight mechanism; however, presi-
dential nominations for board members and congressional confirmations appeared
to be in the early stages.

Recommendations

OIG’s major recommendations are that OCB establish a plan to conduct indepen-
dent audience research regularly and make programming changes based on the
findings; conduct a systematic assessment of its program needs and adjust the
number of contractors accordingly; develop a plan to expand competition for talent
contractors; ensure that talent vendor contracts meet Federal Acquisition Regula-
tion and International Broadcasting Bureau’s procurement regulations; and correct
purchase order deficiencies and establish a quality assurance plan to ensure that
procurement actions are properly handled in the future.

Agency Comments

OIG provided a draft of this report to the Broadcasting Board of Governors for
review and comment. The agency agreed with all ten recommendations. The
agency’s comments are summarized after each recommendation in the body of the
report and are included in their entirety as Appendix D of this report.

1
 The Presidential Advisory Board for Cuba is charged with reviewing the effectiveness of OCB and mak-
ing recommendations to the President and BBG.



OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   5 .

                                                            UNCLASSIFIED
                                     UNCLASSIFIED




6 .   OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                     UNCLASSIFIED
                                                            UNCLASSIFIED




                                    PURPOSE AND SCOPE

This review focused on the recent changes in programming for OCB, primarily for
Radio Marti, since July 2001. It responded to IBB’s request for an assessment of
how these changes were implemented. The objectives of the review were to
assess, through a review of available audience research, whether the changes had
increased audience size and to determine how the changes were implemented. In
particular, OIG wanted to determine whether purchase order vendors were con-
tracted for in compliance with federal regulations and the effect of such vendor
contracts on the OCB permanent staff.

    Survey work was conducted in Washington, DC, in May and early June 2002.
OIG interviewed BBG and IBB officials, including representatives from the Of-
fices of Contracts, Personnel, Chief Financial Officer, Security, and Program
Review. In addition, OIG interviewed the union representative for the American
Federation of Government Employees. From the Department of State, OIG
interviewed officials from the Bureau of Western Hemisphere Affairs, Offices of
Cuban Affairs and Public Diplomacy, and the U.S. Interests Section in Havana.
OIG discussed with the IBB Office of Research its recent audience research for
OCB and the implications of its survey methodology. OIG collected and reviewed
pertinent procurement criteria from both BBG and other sources, including the
Office of Management and Budget (OMB) and the U.S. General Accounting Office
(GAO). Finally, the document review included the Federal Acquisition Regulation
(FAR) and a previous OIG report on OCB administrative practices. 2

    For two and a half weeks in June 2002, OIG conducted fieldwork at OCB in
Miami. This included interviews with OCB management officials, Radio and TV
Marti personnel, and contractors. OIG reviewed documents, including procure-
ment and personnel documents, budget information, program reviews, and a master
broadcasting plan. The document review included the results of IBB’s May 1,
2002, review of OCB procurement records conducted by the Office of Contracts.
In addition to its final report, the IBB contracts office provided OIG with approxi-
mately 2,750 pages of purchase order requisitions, purchase orders, and purchase



2
    OIG, Review of Office of Cuba Broadcasting’s Administrative Practices (99-IB-023, Sept. 1999).



OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   7 .

                                                            UNCLASSIFIED
                                                UNCLASSIFIED



      order modifications for FY 2001 and FY 2002 through January 2002. The IBB
      study did not find any serious procurement deficiencies, but did identify several
      procurement shortcomings. Based on the documentation from IBB Office of
      Contracts and audit work at OCB, OIG judgmentally selected and performed a
      review of 37 purchase order files.3 It also conducted and analyzed a survey of
      Radio and TV Marti personnel, which had an overall response rate of 54 percent.
      (See Appendix A.) To verify claims about changes in programming and program
      scheduling, OIG compared recordings of three days of Radio Marti broadcasts in
      early 2001 (24 hours a day) with three comparable days in 2002. Fieldwork ended
      with an exit conference in Washington, DC, on July 24, 2002.

         OIG’s Office of International Broadcasting Oversight conducted this review
      between May and July 2002, in accordance with generally accepted government
      auditing standards. Major contributors to this report were Louis A. McCall, Acting
      Assistant Inspector General, Office of International Broadcasting Oversight; John
      M. Trembler, audit manager; Martha K. Goode, auditor-in-charge; and Stephanie N.
      Molina, management analyst.

          The primary criteria and standards used in this report were the IBB Manual of
      Operations and Administration, updated March 1, 1999; IBB’s Contracting for
      Talent Handbook, 1997; FAR (48 CFR Chapter 1); and Standards of Ethical
      Conduct for Employees of the Executive Branch (5 CFR Part 2635). Standards for
      internal controls are found in OMB Circular No. A-123 (revised), Management
      Accountability and Control. Finally, the President’s Management Agenda for FY
      2002 prescribes overall good management practices.




      3
       A judgmental sample is not a random sample; it is selected because of characteristics deemed important
      for the research based on the judgment of the researcher.




8 .              OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                                UNCLASSIFIED
                                                            UNCLASSIFIED




                                                    BACKGROUND

At the end of July 2001, a new administration took over the management of OCB.
During the first full year of new management, the OCB director instituted a num-
ber of initiatives, including an OCB master broadcasting plan, the first such OCB
document, and the redesign and expansion of Radio Marti news coverage during
the week and on the weekends. The new strategy was aimed at changing the
station’s image to appeal to as many listeners as possible, especially to the Cuban
youth and to traditionally under-represented groups such as Afro-Cubans. For
example, a Radio Marti show was created to highlight Afro-Cuban topics, and TV
Marti hired for the first time an Afro-Cuban as a news co-anchor.

     In addition, under the new director, OCB responded to President Bush’s May
18, 2001, commitment to “strengthen the voices of Radio and TV Marti” and to
“look for ways to use new technology, from new locations, to counter [Castro’s]
silencing of the voices of liberty.” OCB revamped its web site, helping potentially
to expand the Radio and TV Marti audience to over 60,000 Internet users in Cuba.4
(See Appendix B.) The site provides streaming of both radio and television. This
is particularly important because the Cuban government has consistently jammed
these transmissions to Cuba. Signal jamming has become more effective over time
and has been a key factor in the loss of Radio Marti audience. In response, the
OCB director proposed a comprehensive plan to counter the jamming of Radio and
TV Marti signals. In addition, TV Marti changed its broadcast schedule on May 20,
2002, from the early morning hours of 3:30 a.m. to 8:30 a.m., to a prime time slot
of 6:00 p.m. to 10:30 p.m. Although there has not been any documented evidence
that the audience has increased due to the broadcast schedule change, phone calls
from Cuba indicate that people are, indeed, watching in prime time.

    Beginning in January 2002, the OIG Hotline received complaints of alleged
irregularities in the way overall change was being implemented at OCB, particularly
the increased use of commercial talent vendors. Similar allegations later appeared
in the local Miami media. This prompted IBB to request an OIG review of the
situation. About this time, congressional interest was focusing on the future of



4
    Central Intelligence Agency, World Factbook, (www.cia.gov/cia/publications/factbook/geos/cu.html).



OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   9 .

                                                            UNCLASSIFIED
                                                    UNCLASSIFIED



       Radio and TV Marti. Questions were raised in a hearing about the validity of
       recent audience research studies purporting to show a sudden and significant
       increase in audience size for Radio Marti. In addition, this review is in keeping
       with the President’s May 20, 2002, Initiative for a New Cuba and his commitment
       to continue to look for ways to modernize Radio and TV Marti.

            OCB was created in 1990 to manage both Radio and TV Marti. Authorized by
       the Congress in October 1983,5 Radio Marti began broadcasting to Cuba on May
       20, 1985. TV Marti began regular operations on August 26, 1990.6 Radio and TV
       Marti were established to support the right of the people of Cuba to seek, receive,
       and impart information and ideas through any media and to serve as consistently
       reliable and authoritative sources of accurate, objective, and comprehensive news.
       In 1997, under congressional mandate,7 the OCB headquarters relocated from
       Washington, DC, to Miami.

            For FY 2002, OCB was appropriated about $25.8 million. To meet its human
       resource needs, OCB relies on both full-time government employees and purchase
       order vendors (POV) (sometimes referred to informally as “contractors,” “talent
       contractors,” or, more precisely, “talent vendors”). IBB, in compliance with the
       Federal Activities Inventory Reform Act of 1998,8 indicated that certain OCB
       functions, such as international radio broadcasters (IRB), scriptwriters, translators,
       and narrators, are not inherently governmental functions and could appropriately be
       contracted out. Administration officials reported in June 2002 that there were 163
       full-time government employees working in Miami and 200 contractors. Some of
       these contractors worked intermittently, such as only one or two times, once per
       week, or once per month. Others were used on a regular basis. Radio Marti was
       using 111 contractors, of whom 44 were contracted for the first time after August
       1, 2001, under the new OCB director. As of the end of April 2002, spending for
       Radio and TV Marti contractors was over $2 million. Total spending on contrac-
       tors for the prior two fiscal years was about $1.1 million in FY 2000 and $1.8
       million in FY 2001. (See Table 1.)




       5
           Radio Broadcasting to Cuba Act, 22 U.S.C. 1465 (2002).
       6
           Foreign Relations Authorization Act, Fiscal Years 1990 and 1991, Pub. L. No. 101-246, Title II, Part D.
       7
        Omnibus Consolidated Rescissions and Appropriations Act of 1996, Pub. L. No. 104-134, April 26,
       1996.
       8
           31 U.S.C. 501 note (2002).




10 .                 OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                                    UNCLASSIFIED
                                                            UNCLASSIFIED



  Division                                  FY 2000 (Actual) FY 2001 (Actual)                                                      FY 2002
                                                                                                                                (as of 4/29/02)

  Radio News                                         $231,532                                 $574,436                                $872,888

  Radio Programs                                     $487,775                                 $617,050                                $734,739

  TV News                                            $133,007                                 $182,497                                $205,942

  TV Programs                                        $295,643                                 $384,868                                $317,811

  Total                                             $1,147,957                               $1,758,851                              $2,131,380

Source: OCB Office of Administration



Table 1. Radio and TV Marti Purchase Order
Vendors – FY 2000-FY 2002

    Two previous OIG reports, both issued in 1999, dealt with issues also raised in
this review. One, the Review of Office of Cuba Broadcasting’s Administrative Practices
(99-IB-023, September 1999), studied OCB’s procurement practices. OIG found
deficiencies in procurement actions for services and talent, including limited
competition, unauthorized commitments, improper contracts with relatives, inad-
equate documentation, and questionable funding practices. OIG also found that
OCB was not complying with established personnel policies and procedures in a
number of cases. In its Review of Policies and Procedures for Ensuring that Radio Marti
Broadcasts Adhere to Applicable Requirements (99-IB-010, June 1999), OIG looked at
ways to ensure that quality controls were in place for OCB programming, including
one in particular, the OCB program review committee. During this review, OIG
assessed current OCB practices in light of related recommendations made in those
previous reports.




OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   11 .

                                                            UNCLASSIFIED
                                      UNCLASSIFIED




12 .   OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                      UNCLASSIFIED
                                                            UNCLASSIFIED




                                                             FINDINGS



EFFECT OF PROGRAMMING INITIATIVES IS UNKNOWN
Although the new Radio Marti programming initiatives instituted by the OCB
director after July 2001 seemed to be targeting important new audiences in Cuba, it
was too early to determine from available audience research the impact of these
new programs on increasing the number of listeners in Cuba. At present, there are
several sources of audience listening data for Radio and TV Marti, including IBB
audience research, U.S. Interests Section surveys, and independent studies by
journalists in Cuba. None is without its limitations because of the closed nature of
the Cuban society. Although the results of Radio Marti listener data have been
mixed, some positive data have been reported. IBB expected results from new
audience research in late 2002 and in 2003, which might provide a better indication
of how Cuban listeners feel about the new Radio Marti changes.

OCB New Program Initiatives

New Radio Marti initiatives implemented under the current director include ex-
panded news coverage and additional programs. With regard to news, Radio Marti
redesigned and expanded its newscasts and bulletins. The first newscast, starting at
6:00 a.m., lasts two hours. The other three, airing at 12:00 noon, 6:00 p.m., and
11:00 p.m., are each one hour long. In addition, there are short news updates every
half-hour. On weekends, there is one major newscast at noon with seven minute
long updates on the hour throughout the day. According to the OCB director,
these changes represented a doubling of the news since his arrival at OCB. How-
ever, some Radio Marti officials did not agree that news broadcasts had doubled.
To verify this statement, OIG calculated the amount of time spent on news during
three days in June 2001 before the new director arrived and three days in June 2002
after he had made changes in the news. The results show an increase in news
programming of 40 percent. Because of the limited number of days in the OIG
sample, the results of the analysis have a low level of confidence regarding the
reliability of the specific percentage change. However, OIG is confident that the
results are an indicator that Radio Marti news programming did increase, but may
not have doubled.

OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   13 .

                                                            UNCLASSIFIED
                                                  UNCLASSIFIED



          In addition to the changes in Radio Marti news, OCB revamped its Radio Marti
       program lineup. On June 6, 2002, the director testified to Congress that Radio
       Marti had added six new in-house shows and ten contracted shows to target new
       audiences. Topics for the new programs included psychology, the history of Cuba,
       Afro-Cuban music and the Santeria religion, the life and works of distinguished
       poets, health issues, technology and economy in Cuba, and current affairs. One
       new show is aimed at the Cuban military, and another features talks with indepen-
       dent journalists in Cuba. Also included is a situation comedy about two families,
       one in Cuba and the other in the United States.

       IBB Audience Research

       Most recent IBB audience research on Radio and TV Marti predates full implemen-
       tation of the Radio Marti new programming initiatives; therefore, it cannot be used
       in assessing the effectiveness of the new programs. Nevertheless, the results of the
       August 2001 IBB audience research reveal some interesting facts about Radio Marti
       listeners in Cuba. Specifically, the research shows that Radio Marti remains the
       most listened to foreign station among respondents. About two-thirds of adults
       interviewed acknowledged awareness of Radio Marti. However, the research
       shows a decline in regular Radio Marti listening from nine to five percent, a con-
       tinuation of a long-term decline from over 16 percent in 1994. (See Figure 1.)




       Source: IBB Office of Research, Foreign Media in Cuban Cities–1998-2001



       Figure 1. Radio Marti Weekly Audiences by City:
       1998-2001

14 .               OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                                  UNCLASSIFIED
                                                            UNCLASSIFIED



    The IBB Office of Research uses a variety of audience research tools to mea-
sure Radio and TV Marti’s effectiveness. Since 1998, BBG has commissioned an
annual survey that collects data from the four largest cities in Cuba, plus an alter-
nating fifth city. However, the inability to conduct interviews based on probability
samples of the population restricts the type of data that can be collected and
consequently precludes using the research data to project results to the larger
Cuban population.

     In FY 2002, BBG decided to contract out the bulk of its audience research to
InterMedia, previously the audience research arm of Radio Free Europe/Radio
Liberty. InterMedia has several new audience research initiatives under develop-
ment for OCB to be carried out in 2003 as funding permits. They include tele-
phone interviews, in-depth one-on-one interviews with recent arrivals from Cuba,
and monitoring panels that listen to Radio Marti shows. OCB also conducts focus
groups, the last being conducted in mid-2000. An IBB research official stated that
focus groups are a good tool for qualitative research, but are expensive. Neverthe-
less, according to IBB, OCB focus groups held in September and October 2002
yielded insights from recent Cuban arrivals on their media habits and reasons for
listening and not listening, as well as some feedback on selected OCB programs.

U.S. Interests Section

In recent years, OCB also has received information on the listening habits of select
groups of Cuban residents through officials at the U.S. Interests Section in Havana.
They are in frequent contact with Cubans through civil society organizations and a
steady stream of Cuban visitors to the section seeking U.S. visas. With regard to
the latter, the U.S. Interests Section conducted a survey in March 2002 of Cubans
waiting to be interviewed by consular officials. Of the 256 participants, represent-
ing all 14 provinces of the country, 94 percent said that they had at least heard of
Radio Marti, although 53 percent said they did not listen to Radio Marti. Fifty-four
percent of listeners said their reception was average, while 37 percent said it was
good. The results of these occasional ad hoc surveys of visa applicants, however,
have a limited audience research value because, in recording their responses, the
applicants may worry that what they say will be used in the visa decision-making
process. In addition, according to IBB Research, the Cubans who pass through the
section are a self-selecting sample, as they are all interested in emigrating to the
United States.

    In June 2002, U.S. Interests Section officials reported to OIG that, in general,
the reactions from Cubans have been that Radio Marti news and interviews are
good, and dissidents are happy with the amount of news because it gives their

OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   15 .

                                                            UNCLASSIFIED
                                               UNCLASSIFIED



       views more time on the air. However, the section has also heard criticism that
       some Radio Marti commentators were too negative and one-sided. Regarding
       recent research showing that the percentage of Radio Marti listeners has decreased,
       the principal officer did not think there had been a decrease in listeners and com-
       mented, “nobody knows.”

       Independent Surveys of Radio Marti

       OCB recently received a survey conducted by the Independent Associated Journal-
       ists Foundation in Cuba. The January 2002 survey of 1,000 Cubans reported a
       more than 90 percent daily listening rate for respondents. The OCB director has
       pointed to this study as a validation of the recent changes instituted in Radio Marti
       programming. An analysis of the study by the IBB Office of Research noted some
       positive results but also pointed out that the survey “is not appropriate for making
       estimates of Radio Marti’s listenership among adults in Cuba.” In particular, the
       IBB research office commented that the Journalists Foundation results suggest that
       there is still a diligent group of listeners in the Cuban capital despite the continued
       efforts by the Cuban government to interfere with the signal. However, the IBB
       analysis also noted that many of the independent journalists who conducted the
       survey appeared to have some relationship to Radio Marti, and the respondents
       seemed to be people known by the journalists. As a result, IBB and OIG con-
       cluded that the findings could not be extrapolated to the broader population. The
       U.S. Interests Section concurred with the findings of the IBB survey analysis.

       Importance of Audience Research

       To achieve its mission, one of OCB’s goals is to use “comprehensive and accurate
       research to understand audiences.” Also, in its draft strategic plan BBG stresses
       the importance of a research-based approach to programming for all BBG entities.
       The goal is to “marry the mission to the market.” However, OIG found that, in
       practice, OCB was not using research to guide its programming decisions. In most
       cases, new programs initiated by the OCB director were started without regard to
       audience research. In addition, of 15 new programs, the OCB program review
       committee reviewed only two. One was rejected, and the other was approved with
       changes. The others did not go through any sort of evaluation or program review.
       With greater emphasis on the use of audience research by BBG broadcast entities,
       it is important that OCB take audience research into account, even with its limita-
       tions, as it makes programming decisions.




16 .            OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                               UNCLASSIFIED
                                                            UNCLASSIFIED



    Given the limitations on conducting audience research in Cuba, OCB might
benefit from using additional sources of information to determine audience needs
and reactions. In its response to OIG’s 1999 report on Radio Marti’s adherence to
broadcasting requirements,9 OCB stated that it used focus group research along
with other sources of evaluation. Some of these sources included letters from its
Cuban audience, direct telephone contact with Cubans on the island, and personal
contact with recent arrivals from Cuba. However, OIG found that such informa-
tion was not being used for programming decisions or archived centrally.

    For example, OIG learned that at least two OCB broadcasters and programmers
were keeping track of the calls and letters they receive, but there was no central
repository of such information for OCB use. Also, the director of the Information
Center does not see these letters. If OCB would systematically track mail and
telephone calls from the listeners, all OCB units could benefit from the information
received by considering it when making programming decisions. While this could
provide a useful tool to supplement formal audience research methods, it should
not be a substitute for conducting scientific audience research to the extent pos-
sible. OIG believes that the OCB Information Center would be an appropriate unit
to compile, analyze, and distribute this important information.


     Recommendation 1: The Office of Cuba Broadcasting, in conjunction with
     the International Broadcasting Bureau, should establish a plan to conduct in-
     dependent audience research regularly, to the extent possible, and should
     make appropriate changes to its programming based on the research findings.


    OCB concurred with this recommendation. Under BBG’s centralized audience
research contract with InterMedia, the International Audience Research Project,
IBB has commissioned quality interviews inside Cuba and random-dial phone
surveys of island residents. IBB has also planned and funded under the contract a
set of focus groups, two monitoring panels, and an in-country survey in 2003.
Although OCB did not specify how it would make appropriate changes based on
research findings, it indicated it is committed to improving its use of audience
research in programming decisions. Also, IBB Research remains ready to assist
OCB managers and staff engaged in program evaluation and planning.




9
  OIG Report 99-IB-010, Review of Policies and Procedures for Ensuring that Radio Marti Broadcasts Adhere to Appli-
cable Requirements, (June 1999).


OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   17 .

                                                            UNCLASSIFIED
                                               UNCLASSIFIED




          Recommendation 2: The Office of Cuba Broadcasting should establish a
          centralized process to track systematically and analyze the mail and telephone
          calls received from its Cuban radio and television audiences.


           OCB concurred with this recommendation. OCB said it would consider
       implementing a process whereby all letters from Cuba (and other communications)
       are accounted for and deposited into a central file for use as a factor in decision-
       making about programming. Since it is more cumbersome and difficult to record
       and track telephone calls, the agency stated that OCB might consider soliciting
       audience opinion by providing a telephone number whereby listeners would call in
       to express their viewpoints on OCB programming.



       DEFICIENCIES WERE IDENTIFIED IN THE IMPLEMENTATION OF
       NEW PROGRAM INITIATIVES
       Although the new initiatives enacted by the OCB director after July 2001 were
       generally positive, OIG documented a number of deficiencies in their implementa-
       tion. Initially, OIG found that no personnel needs assessment was performed
       before increasing the ranks of talent contractors to meet new programming require-
       ments. In addition, the practices and procedures involving the hiring and use of
       contractors were inappropriate and inadequate. In some cases, OIG documented
       violations of government procurement requirements and actions that created an
       appearance of favoritism.

       Needs Assessment Was Not Performed Before
       Hiring Contractors

       In the aftermath of the terrorist attacks of September 11, 2001, the OCB director
       implemented a new, expanded radio news broadcast format and added other pro-
       grams targeting different segments of the Cuban audience. To meet what was
       perceived to be an increased need for additional staff resources, OCB management
       began expanding the ranks of its contractors without first taking a systematic look
       at the resources available in-house or doing any kind of needs assessment to guide
       the procurement of new contractors.

           IBB procurement regulations outline the criteria IBB offices must follow in
       determining whether contractor services are required. The Contracting for Talent
       Handbook specifies that, “to the extent possible, IBB programming responsibilities

18 .            OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                               UNCLASSIFIED
                                                            UNCLASSIFIED



should be carried out by IBB staff.” 10 When that is not possible, the handbook
requires an assessment of whether agency employees are available to do the work,
whether specialized skills are required that current employees do not possess,
whether services can be obtained more economically if obtained from non-federal
sources, and whether the services will require only general government oversight of
performance, not close or continual supervision. OCB managers were unable to
provide documentation that any such evaluation was performed. As a result,
multiple managers told OIG in explicit terms that many of the contractors were not
needed and that existing staff could have been better organized and tapped to meet
new programming requirements. In some cases, managers reported that their
permanent staff was underutilized and idle because managers were required to give
some work to the contractors. This was confirmed by actual employees, 15 percent
of whom said in their responses to the OIG survey that contractors were now
doing work that they used to do. (See Figure 2.) Others directly confirmed this
situation in their own cases in interviews with OIG.




Figure 2. OIG Survey Results for Question on
Current Duties

    In interviews, OCB management justified the hiring of new contractors, par-
ticularly in the Radio Marti news department, on the basis that it had doubled the
amount of its news programming during the week and on weekends. However, as
noted earlier, an OIG limited analysis of Radio Marti news indicated that while it is
now broadcasting more news via its news broadcasts and short bulletins (34 per-
cent increase in total minutes of news coverage on weekdays, 40 percent increase



10
     IBB Office of Administration, Contracting for Talent Handbook (Nov. 1997), p. I-1.



OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   19 .

                                                            UNCLASSIFIED
                                               UNCLASSIFIED



       in total news minutes overall), it might not have doubled. As a result, OCB possi-
       bly overstated its need for contractors. A review of the purchase order files for 11
       Radio Marti news department contractors hired since the new OCB director’s
       appointment (nine were hired in March 2002) revealed that none of the requisitions
       included a justification for why the services of these contractors were needed and
       could not be provided by existing resources.

           Furthermore, OCB management claimed that the increased workload had to be
       picked up by contractors because employees refused to work at night or on week-
       ends. OIG findings do not support this claim. A review of employee position
       descriptions found that personnel are required to work weekends and nights if
       needed. In addition, OIG’s survey of OCB employees revealed that 90 percent of
       the respondents were willing to work weekends and non-standard hours. One
       Radio Marti manager initially proposed a rotation schedule using existing resources
       to cover the expanded news broadcasts, but OCB management decided not to use
       it. Instead, contractors are almost exclusively covering non-standard hours and
       weekends in the news department, often without appropriate oversight by OCB
       employees. Specifically, there are no Radio Marti news department supervisors
       regularly scheduled on the weekends. Several supervisors and employees expressed
       concern about the potential risk the lack of oversight on weekends poses to U.S.
       government interests and OCB security. This lack of permanent staff supervision
       may also violate the Voice of America editorial guidelines, which govern OCB.

           A needs assessment would have enabled OCB to develop a procurement plan
       to supplement the in-house resources with short-term hiring of contractors accord-
       ing to actual need. Such an evaluation would also have identified deficiencies in
       the qualifications of permanent staff, which could then be addressed through
       training.


          Recommendation 3: The Office of Cuba Broadcasting should conduct a
          systematic assessment of its program needs, the extent to which regular em-
          ployees could meet those needs, and what, if any, of those needs require the
          use of outside contractors. It should then adjust the number of contractors
          according to the assessment’s findings.


           OCB concurred with this recommendation. The OCB Director will instruct the
       Directors of Radio and TV Marti to conduct a systematic assessment of program-
       ming requirements to determine whether all existing contractors providing services
       are required or whether some of the needs can be met by OCB employees.



20 .            OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                               UNCLASSIFIED
                                                            UNCLASSIFIED




      Recommendation 4: The Office of Cuba Broadcasting should implement
      procedures to ensure that the news staff working on weekends, including con-
      tractors, has proper oversight by Office of Cuba Broadcasting supervisors.


   OCB concurred with this recommendation. The News Department will imple-
ment a new rotating schedule for supervisors in order to provide supervision of
news staff, including contractors, on weekends and night shifts.

OCB Was Not Following Government Contracting
Regulations

OIG found that procedures followed in contracting with talent vendors often were
not in accordance with government procurement requirements, including those in
the IBB Talent Handbook. In particular, OIG found that OCB was not (1) ad-
equately competing talent vendor contracts, (2) properly using personal services
contracts, (3) equitably treating some talent contractors, and (4) exercising suffi-
cient administrative oversight in developing requisitions and approving invoices for
talent contractors. In addition, these contracting irregularities created an appear-
ance of favoritism.

       Inadequate Competition for Talent Contractors

Although OCB was meeting the minimum standards for competing its talent
contractor needs, its actions were not yielding measurable results. Government
procurement policy requires that contracting officials promote competition to the
maximum extent practicable. IBB regulations provide several options for publiciz-
ing competitive opportunities; however, OCB was not making full use of these
options. In a 1999 report,11 OIG found similar problems concerning inadequate
competition for OCB talent contractors. Although OCB agreed to seek wider
contract competition, OIG found that it had not made a good faith effort to explore
other options to increase competition for these contractors. OIG believes that
OCB needs to do more to expand the competition for outside talent to meet its
broadcasting needs.

    The FAR provides that a contracting officer “shall promote competition to the
maximum extent practicable to obtain supplies and services from the source whose
offer is the most advantageous to the Government . . ..”12 IBB regulations require

11
     99-IB-023.
12
     48 CFR 13.104.

OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   21 .

                                                            UNCLASSIFIED
                                               UNCLASSIFIED



       strict adherence to FAR and outline various opportunities for publicizing competi-
       tion for talent contractor services. In particular, the IBB Talent Handbook stipu-
       lates that the degree of competition is dependent on the specific amount of the
       procurement. For talent purchases between $2,500 and $25,000, the handbook
       requires that at least two responsible sources be solicited for proposed contract
       work. All procurements in excess of $10,000 require publicizing to afford competi-
       tive opportunities to prospective contractors. The handbook outlines several
       options to assist IBB offices in meeting the publication requirement, including (1)
       Commerce Business Daily (CBD) notices, which now have been replaced by
       Federal Business Opportunities for Vendors (FBO at FedBizOpps.gov), the
       government’s web site for government vendors; (2) posting of proposed procure-
       ment in a public place at the contracting office issuing the notice; (3) IBB Office of
       Personnel referrals; and (4) advertisements in outside publications. The Talent
       Handbook points out that CBD notices fulfill only minimum competition require-
       ments.

           In 1999, when OIG looked at the competition issue regarding talent contrac-
       tors, it found that OCB had relied almost exclusively on blanket postings in the
       CBD that were submitted quarterly by IBB on behalf of IBB organizations seeking
       such services as announcing, scripting, production, and other services. At that
       time, OCB officials told OIG that, for the period reviewed, there were no re-
       sponses to the CBD postings. As a result, OCB selected contractors that it deemed
       qualified to perform the services. In this regard, the OIG report noted that in a
       number of cases, the justification for selecting a contractor seemed questionable.
       Overall, OIG concluded that for talent procurements over $10,000, OCB was not
       promoting competition, as required, to the maximum extent practicable. In re-
       sponse to an OIG recommendation for OCB to expand competitive opportunities
       for talent contractors, OCB questioned whether avenues other than the CBD
       would yield very much competition. Nevertheless, OCB agreed that, in the future,
       it would explore ways to expand opportunities for competition.

           In June 2002, as part of this current review, OIG found that OCB had not
       changed its approach to competing for talent contractors despite earlier assurances.
       As in the past, it was relying on the CBD (now FBO) quarterly postings and the
       annual public posting at OCB to advertise for talent contractors. Essentially, both
       of these postings are open-ended advertisements to identify potential sources for
       freelance assignments at OCB rather than to fill specific position needs. According
       to a procurement official, OCB received a few responses to CBD notices in past
       years; however, it had not received any responses to the FBO postings that started
       in January 2002. When responses were not received, OCB selected people it
       believed were qualified through alternative and mostly non-competitive means.


22 .            OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                               UNCLASSIFIED
                                                            UNCLASSIFIED



Limited efforts to expand competition beyond these blanket advertisements and the
public OCB postings had not been successful. OCB was turned down when it
sought approval to post its talent contractor needs at local post offices. In addition,
as in the past, administrative officials said that it is too expensive to advertise for
contractors in the local newspapers, although they provided no documentation to
support this claim.

    OCB was not doing enough to find additional sources of talent to ensure
reasonable competition. Although the procurement files contained a copy of a
CBD notice or an OCB public posting for the 37 purchase orders reviewed by OIG,
the official files contained no information on other possible vendors considered
before approval of the purchase orders. Discussions with OCB employees and
contractors revealed that they believed that, in the absence of adequate competi-
tion, talent contractors were hired based on their personal connection to OCB
management officials. For example, in one case, a Radio Marti contractor was hired
over the objections of the OCB program review committee after the contractor’s
program was twice reviewed and rejected. Subsequently, the OCB director abol-
ished the committee and approved the contract award. The director said that the
committee members had not been properly appointed and they did not have the
knowledge to do their job. He added that he planned to establish a new program
review committee and an editorial board.

     In addition, other contractors in the Radio Marti news department told OIG
that they were hired after they asked the OCB director for a job. In general, the
OCB director’s response to the approach used in hiring contractors was that, in the
aftermath of the terrorists attacks of September 11, 2001, the positions had to be
filled on an emergency basis; however, he believed that all of the current contrac-
tors were extremely capable. In this regard, FAR permits other than full and open
competition in cases of unusual and compelling urgency.13 However, contracts
awarded using this authority must be supported by written justifications and ap-
provals, documentation OIG did not find in the official procurement files for the
talent contractors hired by OCB.

    Overall, agency contracting officials are responsible for ensuring the adequacy
of the competitive process. Competition is the primary means of ensuring that
purchases are advantageous to the government, price and other factors considered.
In general, OCB administrative officials commented that they were doing as much
as possible to compete the talent contractor opportunities. OIG disagreed with this
position in 1999 and maintains that OCB still needs to and can do more to expand

13
     48 CFR 6.302-2.


OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   23 .

                                                            UNCLASSIFIED
                                                   UNCLASSIFIED



       competition. In this regard, OIG found that an OCB technical operations manager
       was successful in generating meaningful competition for a contract through adver-
       tising in a trade magazine and on a trade employment web site free of cost. Also,
       an IBB contracts official said that if OCB did procurement planning, the IBB
       Office of Contracts could provide more avenues of competition through such
       things as vendors fairs and web site notices. As a result, OIG believes that OCB
       needs to explore these and other approaches, including posting contractor needs on
       the IBB web site, to find sufficient commercial sources of talent to obtain reason-
       able competition. This takes on increased importance today given the President’s
       Management Agenda for competitive sourcing, which calls for better publicizing of
       agency activities that are subject to competition.


             Recommendation 5: The Office of Cuba Broadcasting, in consultation with
             the International Broadcasting Bureau’s Office of Contracts, should develop
             and implement a detailed competition plan that uses all of its various options
             to expand competition for talent contractors.


           OCB concurred with this recommendation, to the extent practicable. OCB will
       continue to explore other avenues to increase competition, in consultation with the
       IBB Office of Contracts, including the possibility of publicizing announcements on
       the IBB web page and advertising in trade publications and Spanish-language
       newspapers, within budgetary constraints.

              Improper Use of Personal Service Contractors

       In OCB’s implementation of initiatives to expand the daily news broadcasts, Radio
       Marti, and in particular the radio news department, was using the services of a
       number of talent vendors to cover an increased workload in a manner that ap-
       peared to violate both the law and IBB regulations. The FAR provides clear guid-
       ance on government procurement policy, restricting agencies from acquiring per-
       sonal services by contract except when specific statutory authority exists. OCB
       had not been granted such authority.

           The FAR and IBB regulations (Talent Handbook and Manual of Operations
       and Administration) require that contracts with vendors be “non-personal.” A
       personal services contract (PSC) is characterized by the employer-employee rela-
       tionship it creates between the government and the contractor.14 The FAR provides


       14
            48 CFR 37.104(a).


24 .                OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                                   UNCLASSIFIED
                                                            UNCLASSIFIED



a number of descriptive elements to be used as a guide in assessing whether a
contract is personal in nature: (1) performance on site; (2) principal tools and
equipment furnished by the government; (3) services are applied directly to the
integral effort of agencies or an organizational subpart in furtherance of assigned
function or mission; (4) comparable services, meeting comparable needs, are
performed in the same or similar agencies using civil service personnel; (5) the need
for the type of service provided can reasonably be expected to last beyond one
year; and (6) the inherent nature of the service requires, directly or indirectly,
government direction or supervision of contractor employees in order to protect
the government’s interests adequately.15 In addition, part IX, section 148.6 of IBB’s
operations manual provides guidance specific to the case of talent vendors, noting
that “many of these contracts, although written as non-personal service contracts,
can be administered in such a manner as to be considered illegal personal service
contracts.” Included in the guidance are areas to be “scrupulously administered”:
(1) contracts must not be repeatedly extended for long periods without careful
reevaluation of need and present circumstances; (2) contract personnel must not be
assigned duties and work not included in the written contract; and (3) payments
made must be for specific services under the contract and be based on acceptable
units performed or delivered on a job, unit of work, or end product basis, at estab-
lished rates. Payments shall not be provided on a time basis.

    Based on the above requirements, after reviewing purchase order files for radio
news contractors, OIG found that OCB had at least 11 vendors working in the
radio news department as improper PSCs. Many of the contractors, hired as
international radio broadcasters, were functioning as employees in that they were
subject to the relatively continuous supervision and control of an OCB employee
during the week. They were serving in a multidisciplinary function in the news-
room writing, editing, and researching news. Nine of the 11 IRB contractors had
an eight-hour shift written into their purchase orders. The other two confirmed
during interviews that they work a regular eight-hour shift. None of the 11 con-
tractors provided a discrete unit of work as a basis for payment. They were paid
for their time. All 11 of the contractors were on the newsroom work schedule with
regular (full-time) daily shifts and were directly supervised by radio news supervi-
sors during weekdays.

    Attempts by the IBB Director of Personnel to circulate guidelines on recogniz-
ing and avoiding illegal personal service contracts have been ineffective in prevent-
ing talent vendors from being used as personal services contractors. The latest


15
     48 CFR 37.104(d).


OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   25 .

                                                            UNCLASSIFIED
                                               UNCLASSIFIED



       notice on PSC use by the IBB Director of Personnel was sent to OCB on May 20,
       2002. Under the FAR and IBB regulations, the contracting officer is ultimately
       responsible for ensuring that proposed service contracts are proper. OCB Adminis-
       tration staff repeatedly said that it was not staffed sufficiently to monitor the
       implementation of contracts or to verify that contractors were not working as de
       facto PSCs once they were engaged. Therefore, OCB Administration relied on
       program staff for contract monitoring or unofficially as authorized representatives
       of the contracting officers. However, OIG found that program personnel were not
       trained in monitoring contracts. The Office of Federal Procurement Policy’s A
       Guide to Best Practices for Contract Administration (revised April 1998) emphasizes that
       improperly trained officials performing contract oversight is a major contract
       administration weakness. OCB program personnel regularly responsible for moni-
       toring talent contracts need to attend a basic procurement course in contract
       oversight in keeping with the Office of Federal Procurement Policy’s best practices.


          Recommendation 6: The Office of Cuba Broadcasting should direct con-
          tracting personnel to review all talent contracts to ensure that they meet pro-
          visions of the Federal Acquisition Regulation and the International Broadcast-
          ing Bureau’s procurement regulations concerning service contracts, and to
          terminate and recompete those contracts that do not meet those provisions.


            OCB concurred with this recommendation. The OCB Director of Administra-
       tion will issue a memorandum to all OCB contracting personnel requiring a con-
       tracting officer’s initials on each requisition, attesting to the fact that the contract-
       ing officer has personally conducted a review of the requisition and that the requi-
       sition meets the provisions of the FAR, before any further processing. In addition,
       OCB’s Chief of Procurement will immediately initiate action to review all FY 2003
       requisitions to ensure that they meet the provisions of the FAR and IBB regula-
       tions. Additionally, the Office of Administration will hold meetings to brief key
       program managers on the IBB guidelines dealing with the appropriate use of talent
       vendors.


          Recommendation 7: The Office of Cuba Broadcasting should formally as-
          sign to its supervisory program personnel the responsibility for contractor
          oversight and require those designated to attend a basic course for contracting
          officer’s representatives to ensure proper oversight of service contracts.




26 .            OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                               UNCLASSIFIED
                                                            UNCLASSIFIED



    OCB concurred with this recommendation. OCB’s Office of Administration
will coordinate with the IBB Office of Contracts to identify the appropriate train-
ing course(s) on monitoring contractor performance and for ensuring proper over-
sight of service contracts, and OCB will schedule its supervisory program person-
nel who have such contractor oversight responsibility to take this formal training
during FY 2003 to the extent that such training funds are available.

       Inequitable Treatment of Talent Contractors

In the rush to bring on new talent contractors to support increased Radio Marti
news and programs, little attention was paid to the amount of funds that had been
budgeted for Radio Marti contractors. One approach identified by OCB to cover
partially the additional funds needed for the new contractors was to reduce the
payments being made to existing Radio Marti contractors. Although the original
cuts in contractor rates were carried out equitably, some of the original, higher rates
were restored on what appeared to be an inequitable basis. Perceived inequities in
the contractor rate cuts have led to vendor and employee dissatisfaction and legal
action by at least two of the contractors. Under provisions of the FAR (48 CFR
1.602-2), contracting officers are charged with ensuring that contractors receive
equitable treatment.

    Initially, OCB contracted with new talent vendors under blanket purchase
agreements that are intended for the acquisition of intermittent services. Such
agreements provide an administrative mechanism to set aside funds for filling
anticipated repetitive needs for supplies or services. Early in FY 2002, OCB
administrative officials determined that new contractors brought on board under
the blanket agreements actually were being used on a regular, recurring basis and
that funds reserved under the blanket purchase agreements would not support this
level of effort through the end of the fiscal year. At that time, projected funding
for Radio Marti contracts was running significantly ahead of the FY 2001 spending,
which totaled about $1.2 million for Radio Marti News and Programs contracts.
However, expenditures for the same types of Radio Marti contracts were projected
to exceed $1.9 million in FY 2002.

    To keep closer track of expenditures and regain control over spending, contrac-
tors were moved from the blanket agreements to individual purchase orders, which
were then funded for the remainder of the fiscal year. Also, to avoid a shortfall in
the Radio Marti contracts budget, OCB reallocated funds from unfilled positions
($100,000) and the OCB Information Center office budget ($50,000) and from
prior year recoveries of OCB funds ($71,000). Additional funds were secured



OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   27 .

                                                            UNCLASSIFIED
                                               UNCLASSIFIED



       through modifications to purchase orders with existing talent contractors. Proposed
       rate cuts to Radio Marti News and Programs contractors totaled $123,000 and
       $102,000, respectively.

           According to OCB administrative officials, Radio Marti news and programs
       management made the decisions on which contractors’ rates should be reduced.
       OCB contracting officials then prepared and mailed purchase order modifications
       to each of the contractors. Initially, these contractors were not required to agree
       formally to the change. However, after OCB administrative officials discussed the
       matter with the IBB Office of Contracts, it was agreed that the modifications
       should be sent to the contractors again, requesting their written consent to the
       change. Even before this action, some of the contractors had constructively
       agreed to the change by submitting invoices at the new rate. Information provided
       by OCB administration shows that of the 32 modified purchase orders (12 from
       Radio Marti news and 20 from Radio Marti programs), 12 were not accepted by the
       contractors. In six cases, the modifications were rescinded and the original rates
       were restored. In another case, the original rate was restored but the number of
       assignments was reduced.

           OCB administrative and Radio Marti personnel told OIG that a number of the
       contractors who were friends with the OCB director appealed to the director, who
       in turn overturned the cuts and instructed administrative officials to restore the
       original rates. Overall, the process lacked transparency, which contributed to the
       feeling by some employees and contractors that the reinstatement of some rates
       was not handled equitably but instead was based on the alleged friendship between
       selected contractors and the OCB director. The director, however, refuted the
       allegation. He said that the cuts in contractor rates were made because OCB was
       running out of funds. He added that the details of the cuts were left to his depart-
       ment heads and that he had nothing to do with them. With regard to the restora-
       tion of some cuts, the OCB director said that the contractors did not come to him
       seeking to have their rates restored.

           The talent vendor purchase orders, as written, stipulate that OCB is not obli-
       gated to purchase any definite quantities or dollar amounts under an agreement,
       and they can be terminated at the convenience of the government. In commenting
       on the unilateral process used by OCB to reduce rates to contractors, IBB contracts
       officials said that if contractors disagreed with the reductions, they had the right to
       refuse the change. However, the IBB officials added that in such cases, OCB could
       have moved then to terminate the agreements for the convenience of the govern-
       ment. In some cases, the contractors billed for their services at the original rather
       than the reduced price; however, according to OCB administrative officials, OCB


28 .            OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                               UNCLASSIFIED
                                                            UNCLASSIFIED



revised the invoices and paid only the reduced amount. According to IBB Con-
tracts officials, OCB acted improperly in altering the invoices and instead should
have returned them without payment, explaining the reason for the non-payment.

    Although OCB appeared to exercise its authority properly in modifying the
purchase orders, the indiscriminate restoration of some of the reductions was not
appropriately handled. As noted above, FAR requires equitable treatment of
contractors. In this regard, the director of the IBB Office of Contracts told OIG
that if the OCB director were involved in the decision to restore selected contrac-
tor rates it would be inappropriate because it would give the appearance of favorit-
ism. The IBB contracts director added that, in such cases, contractor appeals
should be made to the contracting officer for an independent decision, and any
decisions subsequently overridden by agency management should be documented
in the official contract files.

     When the issue of the inequitable treatment of contractors was raised with
OCB management, the OCB director said that payments to contractors depend on
the quality of the people and that, for example, no one could expect him to pay a
doctor the same salary as a nurse. OIG agrees and, in fact, the IBB Talent Hand-
book provides various rates for services depending on the scope of work required
and the expertise of the contractors. However, the issue in question is not the
actual payment amounts but the arbitrary nature of how purchase order reductions
were handled; i.e., initially, selected purchase orders for talent vendors were re-
duced across the board and then some were restored without valid and documented
justifications. As a result, two of the talent contractors were pursuing legal action;
however, reportedly based on the IBB procurement executive’s review, there was no
basis for the two legal claims. In the future, OCB needs to ensure that decisions
affecting contractor payments are handled in accordance with acceptable procure-
ment policies without the appearance of favoritism to any individual vendor.


     Recommendation 8: The Office of Cuba Broadcasting should establish and
     implement a standard operating procedure to ensure that modifications to tal-
     ent vendor contracts are handled in accordance with the Federal Acquisition
     Regulation and that justifications for such modifications are fully documented
     in the official procurement files.


    OCB concurred with this recommendation. The OCB Director of Administra-
tion recently reminded all OCB employees via e-mail that any actions affecting
contracts with vendors, or any communications with vendors about such actions,
can only be made by the OCB contracting officers. The OCB Office of Adminis-


OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   29 .

                                                            UNCLASSIFIED
                                               UNCLASSIFIED



       tration will return such requests for modifications to the requesting office without
       further action if full, written justification supporting the action is not furnished to
       the contracting officer.

           Deficiencies in the Administrative Oversight of
           Procurements

       In addition to the major contracting problems detailed above, OIG identified
       numerous deficiencies with individual procurement actions that indicate a need for
       greater vigilance on the part of the OCB Office of Administration in processing
       and approving these actions. The OIG review of purchase orders for talent ven-
       dors was similar to the review conducted by the IBB Office of Contracts in ad-
       vance of OIG’s audit work at OCB. The IBB review, undertaken at the request of
       senior IBB management, was carried out by the IBB procurement executive and his
       staff from April 17-19, 2002. Starting with over 2,750 pages of documents that
       had been assembled for a Freedom of Information Act request, IBB narrowed its
       focus to over 50 specific purchase orders, purchase order modifications, and
       invoices for selected contractors named in allegations of improper conduct printed
       in the local media. On May 1, 2002, the IBB contracts director reported to the
       OCB director of Administration that the Office of Contracts did not find any
       serious procurement “deficiencies,” but identified several procurement “shortcom-
       ings,” such as incorrect rates, unauthorized procurement actions, missing signa-
       tures, and duplicate approvals for requisitions. IBB recommended and OCB agreed
       to a procedure to ensure that all POV rates stated in purchase orders and purchase
       order modifications are the correct rates. For future contracts, the contracting
       officer who signs and awards a purchase order or purchase order modification will
       initial next to the rate. According to OCB, it had implemented or was in the
       process of implementing corrective measures to address the shortcomings identi-
       fied in the IBB review.

           OIG conducted it’s own review of OCB procurement actions. Because the
       timing of the OIG and the IBB reviews closely coincided, the procurement docu-
       ments reviewed essentially covered the same time period. However, OIG’s analysis
       of the documents used in both reviews shows that only one of the 37 purchase
       orders reviewed by OIG was previously reviewed by IBB as part of its study. In
       addition, the IBB study did not include certain issues that OIG later reviewed. For
       example, the director of IBB’s Office of Contracts said that he could not make a
       judgment of whether contractors were needed, especially by looking “only at
       paper.” He also said there should be no personal services contractors at OCB and
       that someone would have to observe contractors’ duties to know if the contracts



30 .            OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                               UNCLASSIFIED
                                                            UNCLASSIFIED



were really non-personal services contracts (PSC). He mentioned that an explana-
tory chart provided for his review was broken down by the number of vendors, but
added that some vendors may have many purchase orders/contracts. OIG looked
at these and other issues during its review.

     OIG reviewed 37 purchase order files for talent vendors, which were selected
as a judgmental sample from a list of all vendors provided by OCB’s Office of
Administration. Each file included requisitions, purchase orders, and purchase
order modifications related to the purchase order contract. Twenty-nine of the 37
files reviewed (78 percent) had irregularities or deficiencies of note, as summarized
below. (See Appendix C for more details on these and other deficiencies.)

       •      Improper specifications and requirements in purchase orders concerning
              shift work, which contributed to the inappropriate personal service contract
              status of 11 contractors in the news department.

       •      Missing or inaccurate IBB rate of pay. (Rate did not correspond with the
              scope of work identified in the requisition or purchase order.)

       •      Insufficient, non-itemized invoices approved and paid. (The IBB Talent
              Handbook provides a sample invoice that should be used.)

       •      Unauthorized procurements. (Work completed before purchase order or
              authorization was approved.)

       •      Irregularities with contract modifications. (Vendor was notified after
              effective date of the change.)

       •      Overbilling by vendors.

    From its review of the procurement documents, OIG believes that the OCB
Office of Administration needs to take steps to correct the deficiencies noted
above as well as the others included in Appendix C. In addition, the high percent-
age of deficiencies identified in the purchase orders reviewed by OIG, when
coupled with the results of the IBB Office of Contracts review, strongly supports
the need for the OCB Office of Administration to implement quality assurance
procedures to ensure that administrative staff are processing and approving pro-
curement actions in accordance with government acquisition regulations. Although
OCB agreed with the IBB contracts office to certain procedural changes for future
talent vendor contracts, OCB also needs to address deficiencies in some existing
contracts.



OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   31 .

                                                            UNCLASSIFIED
                                               UNCLASSIFIED




          Recommendation 9: The Office of Cuba Broadcasting’s Director of Ad-
          ministration should ensure that the identified purchase order deficiencies are
          corrected and a quality assurance plan is developed and implemented, includ-
          ing regular spot checks by the Office of Cuba Broadcasting procurement
          chief, to ensure that procurement actions are handled in accordance with legal
          and regulatory requirements.


            OCB concurred with this recommendation. The OCB Director of Administra-
       tion has directed the Chief of Procurement to conduct an analysis of the individual
       purchase order deficiencies noted by OIG and to provide OIG with a detailed
       written analysis of findings and corrective actions taken. The OCB Director of
       Administration will also instruct the OCB Procurement Chief routinely to review
       all procurement actions above $2,500 for both Radio and TV Marti to ensure that
       they are in compliance with all IBB and FAR requirements. Performance of these
       reviews will be included as a specific requirement in the elements and standards of
       the OCB Chief of Procurement’s annual Performance Appraisal Report.



       OCB LACKED KEY MANAGEMENT PERSONNEL AND QUALITY
       CONTROLS
       Since his arrival, the OCB director has operated without some key management
       personnel who might have been able to provide him with guidance on government
       rules and regulations. In particular, these include a chief of staff and a Radio Marti
       director. Although a chief of staff worked for a brief period, the Radio Marti
       director position remained vacant. OIG believes that the absence of these key
       individuals contributed to the administrative deficiencies noted earlier in this
       report. Additionally, the absence of some important internal controls also may
       have contributed to these problems.

           When the OCB director arrived in late July 2001, there was no deputy director
       or chief of staff. A person hired by the former OCB director was filling the Radio
       Marti director position; however, this person retired. In October 2001, the director
       selected an experienced chief of staff; however, after serving less than three
       months, he was terminated by the OCB director, who lost confidence in him for
       unspecified reasons. For most of his tenure, the director took no action to fill the
       Radio Marti director position and, instead, was serving in a dual function. How-
       ever, OIG believes that a full-time Radio Marti director is a key management



32 .            OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                               UNCLASSIFIED
                                                            UNCLASSIFIED



position that requires a considerable amount of hands on responsibility to manage
the day-to-day activities of a functioning broadcasting operation. During the OIG
review in June 2002, the OCB director said that that he planned initially to fill the
position on a temporary basis. Also, in July 2002, the OCB director told OIG that
he had named a person to become his chief of staff. In August 2002, OCB issued
a formal vacancy announcement to fill the Radio Marti director position.

    In addition to the absence of these key officials, the OCB director claimed that
before assuming control, he did not receive training or briefings from IBB on the
responsibilities of his new position. He said that he “had to learn the hard way.”
For example, he said that he was unfamiliar with government contracting rules and
regulations. OIG believes that the director should have relied more on the experi-
enced staff of OCB administrative personnel to ensure that government procure-
ment rules were followed. In this regard, OCB information shows that at different
times administrative personnel pointed out to the OCB director the proper handling
of talent vendors. Furthermore, IBB disputes the claim that the OCB director did
not receive adequate orientation before assuming his director duties. Information
supplied by IBB shows that before entering on duty, the OCB director had meetings
over a two-day period in Washington with one of the BBG governors and IBB
senior management staff, plus informal IBB briefings. Also, the IBB director
formally outlined the duties of the OCB director in a letter to him, dated July 24,
2001, and enclosed various materials on BBG operations. In addition, in a continu-
ing effort to assist the OCB director, IBB pointed to the many visits made to Miami
by IBB management after July 26, 2001.

     Another contributing factor to the problems experienced by OCB in implement-
ing changes was the lack of quality control structures. In the past, such structures
included an internal OCB program review committee and a Presidential Advisory
Board for Cuba Broadcasting. The program review committee evaluated prospec-
tive shows and made recommendations on their use by OCB. In November 2001,
the OCB director disbanded the committee after it twice rejected a new show that
he proposed. He told OIG that the committee did not have the knowledge to do
its job and that he did not trust it. He also said it was faster to get programs on the
air without it. The OCB director mentioned during the July 24, 2002, exit confer-
ence with OIG that he was planning to reconstitute the committee. In the mean-
time, 13 shows went on the air without any review. One show went on the air after
twice being turned down by the program review committee. There continued to be
a daily editorial review meeting for news, but members questioned its effectiveness.
At the conclusion of our review, the OCB director said he planned to establish a
new editorial board for Radio Marti.



OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   33 .

                                                            UNCLASSIFIED
                                                   UNCLASSIFIED



           OCB was operating without the benefits of a Presidential Advisory Board,
       which had been inactive for several years. The board, when active, consisted of
       nine members appointed by the President with the advice and consent of the
       Senate, with not more than five of the same political party. The board was charged
       with reviewing the effectiveness of OCB and making recommendations to the
       President and BBG.16 OCB has no direct responsibility for the board, whose last
       meeting was in February 1998. OIG believes that the Advisory Board could
       provide an important oversight mechanism; however, presidential nominations for
       board members and congressional confirmations appeared to be in the early stages,
       a factor that was beyond the control of OCB.

           All of these factors, in addition to the inappropriate hiring and use of contrac-
       tors noted earlier, may have contributed to the fall in morale that was reflected in
       the OIG survey results. Overall, 64 percent of the survey respondents said that
       morale had decreased since August 2001. (See Figure 3.)




       Figure 3. OIG Survey Results for Question on
       Morale

           When asked to explain in interviews the reason for declining morale, managers
       and staff repeatedly stated that they were discouraged by the lack of structure and
       procedures. They said that people skipped the middle management level and went
       straight to the top with problems. Many stated that programming decisions were
       not made through proper evaluation. Others were demoralized by perceived
       irregularities in contracting procedures. It should be pointed out that many employ-
       ees told OIG that morale was also poor in the years before the new OCB director’s
       appointment.


       16
            22 USC 1465c.


34 .                OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                                   UNCLASSIFIED
                                                            UNCLASSIFIED



    In February 2002, a representative of IBB’s Advisory, Referral and Counseling
Service from the Office of Personnel met with OCB managers. A list of concerns
included the need for clear lines of authority, a clear system for decision making,
faster responses on policy decisions, revamped procedures and protocols to simplify
the contractor approval process, and better communications and exchange of
information within OCB. Also, managers expressed the need for access to the
OCB director. They recommended that a Radio Marti director be hired, as well as a
deputy director. The latter would ideally possess the necessary skills and experi-
ence from within the U.S. government to work effectively with managers. Overall,
OIG believes that if key personnel had been in place, personnel and contracting
deficiencies may have been avoided to a large extent, which probably would have
had a positive impact on the morale of OCB staff.


     Recommendation 10: The Office of Cuba Broadcasting should move for-
     ward with its plans to fill the chief of staff position and complete action for
     the selection of a Radio Marti director.


    OCB concurred with this recommendation. The OCB Director moved to
remedy the situation. A new chief of staff began in August 2002, and a new
acting director of Radio Marti began in October 2002.




OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   35 .

                                                            UNCLASSIFIED
                                      UNCLASSIFIED




36 .   OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                      UNCLASSIFIED
                                                            UNCLASSIFIED




                     LIST OF RECOMMENDATIONS

Recommendation 1: The Office of Cuba Broadcasting, in conjunction with the
  International Broadcasting Bureau, should establish a plan to conduct indepen-
  dent audience research regularly, to the extent possible, and should make appro-
  priate changes to its programming based on the research findings.

Recommendation 2: The Office of Cuba Broadcasting should establish a central-
  ized process to track systematically and analyze the mail and telephone calls
  received from its Cuban radio and television audiences.

Recommendation 3: The Office of Cuba Broadcasting should conduct a system-
  atic assessment of its program needs, the extent to which regular employees
  could meet those needs, and what, if any, of those needs require the use of out-
  side contractors. It should then adjust the number of contractors according to
  the assessment’s findings.

Recommendation 4: The Office of Cuba Broadcasting should implement proce-
  dures to ensure that the news staff working on weekends, including contractors,
  has proper oversight by Office of Cuba Broadcasting supervisors.

Recommendation 5: The Office of Cuba Broadcasting, in consultation with the
  International Broadcasting Bureau’s Office of Contracts, should develop and
  implement a detailed competition plan that uses all of its various options to ex-
  pand competition for talent contractors.

Recommendation 6: The Office of Cuba Broadcasting should direct contracting
  personnel to review all talent contracts to ensure that they meet provisions of
  the Federal Acquisition Regulation and the International Broadcasting Bureau’s
  procurement regulations concerning service contracts, and to terminate and
  recompete those contracts that do not meet those provisions.

Recommendation 7: The Office of Cuba Broadcasting should formally assign to
  its supervisory program personnel the responsibility for contractor oversight and
  require those designated to attend a basic course for contracting officer’s repre-
  sentatives to ensure proper oversight of service contracts.




OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   37 .

                                                            UNCLASSIFIED
                                               UNCLASSIFIED



       Recommendation 8: The Office of Cuba Broadcasting should establish and
         implement a standard operating procedure to ensure that modifications to talent
         vendor contracts are handled in accordance with the Federal Acquisition Regu-
         lation and that justifications for such modifications are fully documented in the
         official procurement files.

       Recommendation 9: The Office of Cuba Broadcasting’s Director of Administra-
         tion should ensure that the identified purchase order deficiencies are corrected
         and a quality assurance plan is developed and implemented, including regular
         spot checks by the Office of Cuba Broadcasting procurement chief, to ensure
         that procurement actions are handled in accordance with legal and regulatory
         requirements.

       Recommendation 10: The Office of Cuba Broadcasting should move forward
         with its plans to fill the chief of staff position and complete action for the se-
         lection of a Radio Marti director.




38 .            OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                               UNCLASSIFIED
                                                            UNCLASSIFIED




                              LIST OF ABBREVIATIONS


                               BBG              Broadcasting Board of Governors
                               CBD              Commerce Business Daily
                                FAR             Federal Acquisition Regulation
                               FBO              Federal Business Opportunities
                              GAO               U.S. General Accounting Office
                                 IBB            International Broadcasting Bureau
                                 IRB            International radio broadcaster
                              OCB               Office of Cuba Broadcasting
                               OIG              Office of Inspector General
                             OMB                Office of Management and Budget
                               POV              Purchase order vendor(s)
                                PSC             Personal services contract(or)




OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   39 .

                                                            UNCLASSIFIED
                                      UNCLASSIFIED




40 .   OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                      UNCLASSIFIED
                                                            UNCLASSIFIED



                                                                  APPENDIX A

                              Summary Results of OIG’s Survey of
                            Radio and TV Marti Personnel, June 2002




OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   41 .

                                                            UNCLASSIFIED
                                      UNCLASSIFIED



                                                       APPENDIX A

                 Survey Summary Results for Radio Marti
                          Personnel, June 2002




42 .   OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                      UNCLASSIFIED
                                                            UNCLASSIFIED



                                                                  APPENDIX A
                                  Survey Summary Results for TV Marti
                                         Personnel, June 2002




OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   43 .

                                                            UNCLASSIFIED
                                      UNCLASSIFIED




44 .   OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                      UNCLASSIFIED
                                                            UNCLASSIFIED



                                                                  APPENDIX B




OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   45 .

                                                            UNCLASSIFIED
                                      UNCLASSIFIED




46 .   OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                      UNCLASSIFIED
                                                            UNCLASSIFIED



                                                                  APPENDIX C

OIG Review of Selected OCB Purchase Order Files
     OIG reviewed 37 purchase order files for Radio Marti purchase order vendors,
selected as a judgmental sample from a list of current talent contractors provided
by OCB's Office of Administration. In addition to the actual purchase order, the
files include the requisitions, purchase order modifications, competition documen-
tation, service agreements, and other associated documentation. OIG reviewed
each document in the 37 files, evaluating justifications, scope of work, rates of
pay, invoices, date and signature consistency, and other issues as they arose.
Twenty-nine of the 37 files (78 percent) contained irregularities or deficiencies of
note, which are detailed below.

In sum, OIG found:

       •      The inappropriate personal service contract status of 11 contractors in the
              news department.

       •      Missing or inaccurate IBB talent schedule rates. (Rate did not correspond
              with the scope of work identified in the requisition or purchase order.)

       •      Insufficient, non-itemized invoices approved and paid. (The IBB Talent
              Handbook provides a sample invoice that should be used.)

       •       Unauthorized procurements. (Work completed before purchase order or
              authorization was approved.)

       •        Irregularities with contract modifications.

       •        Overbilling by vendors.



De Facto PSCs

       •       Eleven OCB vendors working as international radio broadcasters (IRB)
              whose purchase order files were reviewed by OIG appeared to be working
              as de facto personal service contractors (Purchase Orders: P209-1254,
              P209-1252, P209-1256, P209-1253, P209-1261, P209-1257, P209-1262,
              P209-1032, P209-1255, P209-1027, P209-1193). Nine of the eleven have
              an eight-hour shift written into their purchase orders; the remaining two
              (P209-1027 and P209-1032) do not have it written into their contract, but


OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   47 .

                                                            UNCLASSIFIED
                                              UNCLASSIFIED



              they are listed with an eight-hour shift on the Radio Marti news schedule.
              All 11 contractors have regular shifts listed on the Radio Marti news work
              schedule as regular work hours.

              Regarding payment, eight of the 11 are listed as IBB rate III.A.3, which is
              for 15-30 minutes of broadcast material. However, these vendors perform
              general journalistic duties, including researching, editing, and writing. Two
              of the vendors have no IBB rate listed at all on their purchase order (P209-
              1027 and P209-1193). According to interviews, they are functioning as
              IRBs, despite the fact that their purchase order specifies other kinds of
              work, and they are listed in the IRB work schedule.

              The invoices for all 11 of the above-mentioned vendors are insufficient and
              not itemized. There is no way to discern any kind of deliverable product -
              the contractors are billing by the day, i.e., for their time.

              Three other irregularities were uncovered during the analysis of IRB pur-
              chase order files: two contractors performed and billed for work done
              before their purchase orders were issued and approved (P209-1262 and
              P209-1255) and another submitted invoices for work before the services
              were delivered, and payment was approved ahead of time on several
              occasions (P209-1257).

              The 11 IRB files reviewed revealed that none of the requisitions included a
              justification for why the services of these contractors were needed and
              could not be provided by existing resources.

       Other Irregularities

          •   A purchase order vendor (P209-1259) is not being paid according to IBB
              rate schedules. The requisition states that assignments are for voicing news,
              where eight consecutive hours constitutes one assignment and less than
              four hours constitutes half an assignment. The rate per assignment is $100.
              The same applies for another vendor (P209-1258). However, the IBB
              Talent Handbook defines one assignment for that kind of work as four
              consecutive hours and the rate for one assignment (i.e., four hours) is $23-
              $56. Additionally, the invoicing for both vendors is not itemized; therefore,
              it is impossible to document whether they are actually doing four or eight
              (or other) hours of voicing.




48 .           OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                              UNCLASSIFIED
                                                            UNCLASSIFIED



       •      A purchase order vendor (P209-1034) protested contract modifications via
              a letter claiming that the vendor only received a copy of the modification
              after the changes had taken effect. Radio news management then re-
              quested that the old contract be extended in order to provide the requisite
              advance notice of the pending modification, after which the new contract
              would take effect. OCB granted the extension of the old contract.

       •      A purchase order vendor (P209-8045) is being paid at an IBB rate that does
              not match the actual show specifications. The vendor received a contract
              for $20,900. The contract specifies that the vendor write and conduct two
              shows per week, an hour long each, and at the rate of $275 per show
              according to IBB rate III.B.2. However, IBB rate III.B.2 ($181-$600) is for
              15-30 minutes of complicated documentary or multi-voice scripted broad-
              cast material.

       •      A purchase order vendor (P209-1031) has a contract stating that the vendor
              is to provide over 30 minutes of broadcast material per assignment, at a
              rate of $100 each. The current contract, after modification, is for 310
              assignments at that rate, for a total of $31,000. The contract states that the
              purchase order vendor will be paid under IBB rate schedule III.A.2; how-
              ever, the IBB talent handbook states that rate III.A.2 is for "less than 15
              minutes of broadcast material," with the payment range being $61-$202.
              While the payment is within that range, the purchase order vendor is re-
              quired to produce assignments of more than 30 minutes of material, so that
              is an inappropriate schedule for this contract.

              OIG is concerned about the frequency and size of the assignments for this
              contract. The purchase order vendor has submitted invoices for every
              single day of the year but two (January 26 and 27) since January 1, 2002.
              According to the program schedule OIG received from Radio Marti staff,
              the vendor's half-hour show is aired only twice per week, which is the
              primary program mentioned in the purchase order vendor's invoices. There-
              fore, the purchase order vendor would have to be submitting at least 30
              minutes of broadcast material each of the remaining five days of the week
              in order to have done the work invoiced. OIG confirmed via interview that
              the vendor bills for work on a daily basis, regardless of how many shows are
              produced or aired in a given month. This has resulted in overbilling.




OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   49 .

                                                            UNCLASSIFIED
                                           UNCLASSIFIED



       •   A purchase order vendor (P209-1232) was contracted to perform commen-
           taries for a radio show on military issues in Cuba. The purchase agreement
           for this vendor states that only the OCB director and the secretary for the
           unfilled position of Radio Marti director are authorized to place orders for
           his services. This is not in line with the thoughts of the IBB chief procure-
           ment executive, who said that the OCB director should not be involved at
           all with contracting. However, the Radio news director is the one who
           approved all the invoices submitted to date.

       •   A company has a contract to provide weather reports (P209-1095). The
           vendor is supposed to provide eight weather reports daily Monday through
           Friday and two each on Saturday and Sunday. During the weekdays, he is
           required to file four pre-recorded segments. No length of time is specified
           for the broadcasts. The contract does not have an IBB talent schedule rate
           listed for this vendor, but pays him "a flat monthly fee" that "has been
           established by the News Department Management." OIG finds this to be
           questionable when rates are available to charge per assignment. The
           invoices for this vendor are not itemized, so there is no way to verify
           whether the eight daily reports (four pre-recorded) and four weekend
           segments were all submitted.

       •   A purchase order vendor (P209-1046) is one of the contractors proposed to
           receive a reduction in rates; however, the requisitions to lower the rates
           were not approved by the OCB director (although they were approved by
           the acting news director), so the purchase order vendor continued to receive
           his original rate.

       •   OCB terminated two contracts for another company (P209-1072 and P209-
           1033). However, the letter of termination was dated 3/8/02, with an
           effective date of 1/7/02. In the opinion of OIG, it is inappropriate to
           notify a vendor of contract termination two months after the fact. The
           same vendor also has a contract to work on the newscasts, under P209-
           1047. The rate schedule quoted is III.A.2, but the vendor is being paid $50
           per assignment. The range for that position is $61-$202. This purchase
           order was issued on 11/3/01, and the purchase agreement was signed by
           the vendor on 11/15/01, yet the vendor submitted an invoice for $1,150
           for the month of October, before the purchase order was approved. In
           addition, the invoices for this vendor are not itemized; are for multiple
           contracts without a specification by the contractor subtotaling amounts by
           contract; and in one case, include fees for a contract that has been canceled.



50 .        OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                           UNCLASSIFIED
                                                            UNCLASSIFIED



       •      A purchase order vendor (P209-1044) was hired to participate in a one-hour
              show on immigration, yet is classified in IBB rate schedule III.A.2. How-
              ever, IBB rate schedule III.A.2 is for less than 15 minutes of broadcast
              material.

       •      A purchase order vendor (P209-1030) has a contract to provide broadcast
              material from Spain on European events. The original per unit amount was
              $80. On 10/26/01, a modification was issued to change the unit price
              from $80 to $50. On 3/14/02, another modification was issued, changing
              the per unit amount to $80. However, this vendor continued to bill for $80
              per unit during the period the rate was changed to $50 (from 10/26/01
              through 3/14/02). The result is an overbilling of $3,450 for the period in
              question.

       •      A purchase order vendor (P209-1029) has a contract to provide correspon-
              dent reports at a rate of $75 per assignment. However, there is no refer-
              ence to an IBB talent schedule rate against which to verify whether this is
              appropriate for the work being produced. The invoices for this vendor are
              exemplary in that they document each segment submitted.

       •      Another vendor (P209-1229) also has no IBB talent schedule rate in the
              contract. Invoices are not itemized, making it difficult to determine what
              product was turned in. Tracking work would be improved by the use of the
              Work Certificate and Daily Production Report included in the IBB Talent
              Handbook.

       •      A purchase order vendor (P209-1090) has a contract to produce two daily
              technology segments, of three to five minutes in length, at a price of $50
              each. The IBB rate quoted in the contract is III.A.3 ($76-$174), which is
              for 15-30 minutes of broadcast material. This is an inappropriate rate
              schedule for these segments, which are for fewer than 15 minutes. The
              invoices for this vendor are not itemized, and tracking of his work would be
              improved by the use of the Work Certificate and Daily Production Report
              included in the IBB Talent Handbook.




OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   51 .

                                                            UNCLASSIFIED
                                           UNCLASSIFIED



       •   A purchase order vendor (P209-1027) has a contract to produce a daily
           commentary segment, for a fee of $100 per segment. There is no IBB rate
           mentioned in the contract. Invoices are not itemized, and tracking of work
           would be improved by the use of the Work Certificate and Daily Production
           Report included in the IBB Talent Handbook. Also, based on an interview
           with OIG, the vendor was working as a full-time (five days per week, eight
           hour shift) IRB contractor, supervised by Radio Marti managers. The
           vendor is also listed on the Radio Marti IRB contractor work schedule with
           a daily shift, indicating the arrangement is a de facto PSC.

       •   A purchase order vendor (P209-1030) has a contract to produce commen-
           taries on military issues in Cuba, at a rate of $50 per assignment. No IBB
           talent schedule rate is quoted for this vendor.

       •   A purchase order vendor's (P209-1021) IBB rate was reduced from $75 to
           $50 per show; however, the rate quoted for this vendor is III.A.4, which is
           for 15-20 minutes of broadcast material requiring extensive research and
           knowledge, with a range of $128-$277.

       •   A purchase order vendor (P209-0506) has no IBB rate noted on the con-
           tract, and the work began before the date of the purchase order. Invoices
           began 1/8/02, but the purchase order was dated 2/1/02, with an effective
           date of 1/7/02, which predates the purchase order.




52 .        OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                           UNCLASSIFIED
                                                            UNCLASSIFIED



                                                                  APPENDIX D




OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   53 .

                                                            UNCLASSIFIED
                                              UNCLASSIFIED



                                                               APPENDIX D

                                                                                                                                             Enclosure

                                                       BBG/IBB RESPONSE

                                     TO THE OIG DRAFT AUDIT REPORT

        "REVIEW OF THE EFFECTIVENESS AND IMPLEMENTATION OF OF-
          FICE OF CUBA BROADCASTING'S NEW PROGRAM INITIATIVES"

                                            REPORT NUMBER IBO-A-03-01

                                                             OCTOBER 2002
          Recommendation 1: The Office of Cuba Broadcasting, in conjunction
          with the International Broadcasting Bureau, should establish a plan
          to conduct independent audience research regularly, to the extent
          possible, and should make appropriate changes to its programming
          based on the research findings.
       IBB Response: The Office of Cuba Broadcasting (OCB) concurs with Recom-
       mendation 1. In fact, an audience research mechanism involving coordination
       between the International Broadcasting Bureau (IBB) and the Office of Cuba
       Broadcasting (OCB) already exists. As recently as September and October 2002,
       an independent quantitative and qualitative research was conducted in Miami and
       in Cuba, with the input and participation of OCB.

       IBB audience research has been and remains overseen by in-house professionals
       and conducted by outside contractors. In 2001, the BBG mandated a centralization
       of most contracted research under one large contract, the International Audience
       Research Project (IARP), which has been awarded to InterMedia and partner
       companies for FY-2002 and FY-2003. IBB has commissioned InterMedia partner
       Casals & Associates to conduct two pilot projects – in-depth qualitative interviews
       inside Cuba and random-dial phone surveys of island residents.

       Following the mandate set down by the BBG, IBB has planned and funded under
       the IARP contract a set of focus groups in April 2003, two monitoring panels in
       March and September 2003, and an in-country survey in August/September 2003.
       As funding permits, IBB plans to commission a phone survey, listener panels and
       focus groups during FY 2003. These will serve both to assist in developing new
       programming and to measure the effects of changes in delivery, reception, and
       programming on audience. OCB is committed to improving its use of audience
       research in programming decisions.

54 .           OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                              UNCLASSIFIED
                                                            UNCLASSIFIED



A September-October 2002 multi-city survey provides OCB with detailed informa-
tion on media habits (e.g., what time of day various demographic groups in Cuba
are using radio and TV) that can be of value in planning and scheduling programs.
Focus groups in September-October 2002 have yielded insights from recent arrivals
on their media habits, reasons for listening and not listening to Radio Marti, as well
as feedback on eight programs selected by OCB for evaluation. A monitoring panel
in September provided evaluations of additional programs. OCB managers and
staff observed the focus groups, and reports on all recent research have been made
available to OCB. IBB and research contractors from InterMedia partner Casals &
Associates briefed OCB and answered questions about the implications of the
research. IBB Research remains ready to prepare on request ad hoc analyses of
data for OCB managers and staff engaged in program evaluation and planning.

OCB has in the past invited recent arrivals to discussions at its offices, led by
Radio Marti managers, to explore preferences and reactions to programming. Such
efforts are significantly less expensive than professional, independent research,
though the methodology can limit critical feedback. Through its Media Monitoring
Section and Information Center, OCB already makes strong efforts to gather and
distribute information about Cuba and its media environment that helps put audi-
ence research in context. To that end, direct contact with people who are visiting
from Cuba or who recently left the island, be they regular Radio Marti listeners or
not, would go a long way in helping us provide our target audience with program-
ming that is tailor-made to their needs and which takes into direct account Cuban
realities of the moment. It should be noted that enhancing these activities may
require additional personnel and additional funding. In the interim, however, OCB
will explore undertaking additional activities such as staff interviews of recent
arrivals from Cuba, within existing resources.

New Information on Effectiveness of OCB Programming

New data has become available from the September/October 2002 survey in five
Cuban cities, and from the focus groups and monitoring panel conducted with
recently-arrived Cuban immigrants in South Florida in the same timeframe. The
survey data, gathered from the same European market research firm that con-
ducted omnibus surveys in Cuban cities since 1998, show increases in weekly
listening in the cities of Holguin and Santa Clara, but no increases since 2001 in
Havana and Santiago. These increases are also apparent among males, those ages
25-34, and those with secondary education. While participants in qualitative
research were not previously aware of the programming changes, they gave positive
evaluations of a number of sample programs tested in the research.



OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   55 .

                                                            UNCLASSIFIED
                                               UNCLASSIFIED



          Recommendation 2: The Office of Cuba Broadcasting should estab-
          lish a centralized process to track systematically and analyze the mail
          and telephone calls received from its Cuban radio and television audi-
          ences.
       IBB Response: The Office of Cuba Broadcasting (OCB) concurs with Recom-
       mendation 2. Presently, some Radio Marti staffers, usually on-air personalities,
       periodically receive letters from Cuba with commentary, suggestions and opinions
       on the programs. However, there has been little effort by the OCB to tabulate or
       quantify the number of letters received or to archive them for further research or
       posterity. Typically, these letters provide important feedback, both positive and
       negative, to the staffers involved in the program, but little else is done with them,
       and they are not shared with other staffers or the Directorate, as a matter of proce-
       dure. The OCB sees merit to the OIG recommendation, and will consider imple-
       menting a process whereby all letters from Cuba (and other communications) are
       accounted for and deposited into a central file at the OCB Information Center.
       Furthermore, the opinions and suggestions expressed in these letters will be ana-
       lyzed for possible use, as a factor to be considered in OCB decision-making as it
       relates to programming matters. E-mail feedback and Internet communications will
       also form part of this initiative.

       Recording and tracking telephone calls is more cumbersome and difficult. Most of
       the OCB's telephone contacts with Cuba are news related, or take place within the
       framework of the Agency's journalistic requirements. However, by way of promos
       and spots, the OCB might expressly consider soliciting audience opinion by provid-
       ing a telephone number whereby listeners would call in to express their viewpoints
       on OCB programming, generally and specifically. This would provide the Director-
       ate with one additional source of information with which to gauge audience
       preferences.

       It should be pointed out however, that the danger in relying on mail and telephone
       calls from station listeners to make programming decisions is that such feedback
       comes from a self-selected group of motivated listeners. Even if these writers and
       callers were representative of the views of listeners, audience growth requires
       paying attention to the behavior and preferences of non-listeners more than current
       audiences.




56 .            OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                               UNCLASSIFIED
                                                            UNCLASSIFIED



       Recommendation 3: The Office of Cuba Broadcasting should con-
       duct a systematic assessment of its program needs, the extent to
       which regular employees could meet those needs, and what, if any, of
       those needs require the use of outside contractors. It should then
       adjust the number of contractors according to the assessment's find-
       ings.
IBB Response: The Office of Cuba Broadcasting (OCB) concurs with Recom-
mendation 3. The OCB Director will instruct the Directors of Radio and TV Marti
to conduct a systematic assessment of programming requirements, to include an
assessment of whether all existing contractors providing services to their depart-
ments are required, or whether some of the needs can be met by OCB employees.

It should be pointed out however, that programming development in the Radio
Marti Programs Department follows strict evaluation criteria and testing to ensure
programming that meets the needs of the Cuban audience, Radio Marti's strategic
objectives and guidelines, and attains the highest possible production quality.

Crucial to this development is the Radio Marti Programming Committee. Com-
posed of senior management and radio professionals, the committee reviews,
discusses, and evaluates program proposals in light of established criteria, Radio
Marti's strategic objectives, and results of testing. It then makes recommendations
to the Director of OCB.

Defining and applying sound criteria are essential to effective programming evalua-
tion. The criteria outlined below guide Radio Marti's programming committee in its
programming evaluations. These criteria involve program purpose, target audience,
scheduling, subject matter, documentation and production values.

Proposals for new on-air programs are required to address these criteria. Not all
criteria apply equally to all programs, however.

       1) Purpose
              What is the format of the program?
              Does the purpose of the program fit into the overall purposes and policies
              of Radio Marti?
              Do any existing programs have the same format?
              Are there two or more programs with the same format?
              If so, are they necessary?




OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   57 .

                                                            UNCLASSIFIED
                                               UNCLASSIFIED



           2) Target audience
              What is the projected target audience for this program: age, sex, education,
              other?

           3) Scheduling
              What is the recommended broadcast time for the program?
              Does the broadcast time fit with the programs that air before and
              after it, so as to promote audience retention? If not, why?
              Is the scheduling set to compete most effectively with the Cuban radio and
              television programs? If not, why?

           4) Subject Matter
              Is the subject matter of the program consistent with general Voice of
              America, and specific Radio Marti policy and guidelines? If not, why?

           5) Documentation
              Are the levels of sources of information adequate for the type of program
              in consideration?

           6) Production Value
              Is the recording of broadcast quality?
              Has the program been edited for broadcast use?
              Does the program use sound well?
              Is the on-air talent effective?
              Does the mix of on-air voices work?
              Is the language of the program suitably idiomatic given the Cuban audi-
              ence?
       Additionally, the pilot may be presented to a focus group for further evaluation.



       The result could be that a pilot fulfills the above-mentioned criteria, yet critical to
       the success of the pilot is specialized knowledge or ability held by a non-Radio
       Marti employee. The Programs Department programming committee would then
       expand on the criteria by attempting to identify in-house employee(s) that could
       assume the role or attempt to alter the pilot's format in order to accommodate the
       deficiency. If a suitable in-house employee could not be identified or altering the
       format would substantially reduce the quality of the pilot, a contractor possessing
       the specialized knowledge or ability may be used.
           Recommendation 4: The Office of Cuba Broadcasting should imple-
           ment procedures to ensure that the news staff working on weekends,


58 .            OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                               UNCLASSIFIED
                                                            UNCLASSIFIED



       including contractors, has proper oversight by Office of Cuba Broad-
       casting supervisors.
IBB Response: The Office of Cuba Broadcasting (OCB) concurs with Recom-
mendation 4. It must be pointed out that during the last year, the workload of the
News Department has increased considerably with the introduction of a variety of
sixty and thirty-minute news programs. Expanded newscasts aired four times a day,
and news bulletins at the top and at the bottom of the hour were also added. All
of this new programming resulted from the historical events of September 11,
2001, and also in response to the ongoing campaign and war against terrorism. The
situation in Cuba and its new dynamics in its relationship with the United States, as
well as in the political, social and economic arenas have also created the need for
expansion in the News Department. This has imposed new demands on the News
Department management.

The News Department will be implementing a new rotating schedule for supervi-
sors for Saturdays and Sundays to replace the supervision that has been performed
entirely by the News Department Director on both days. The placement of rotat-
ing schedules for supervisors will be put into effect in order to provide supervision
of news staff, including contractors, on weekends and night shifts.

Correction: On page 1 of the Executive Summary and page 9 of the report,
please note that the correct date for the President's speech is May 18, 2001.

Overall Comments on Procurement Issues

       •      While we agree with many of the procurement recommendations (some of
              which we have already implemented), we do take issue with some of the
              statements contained in the report, particularly with regard to the procure-
              ment "process." We also believe that there is a lack of context for many of
              the procurement issues. It should be noted in the procurement section of
              the report that a very small OCB procurement staff (comprised of three
              contracting officers and one purchasing agent) handles literally thousands
              of pages of procurement documents annually. Specifically noting this fact
              early in the report, would help provide some perspective on the issues
              discussed, as on page 26, for example, where it is mentioned that "OCB
              Administration staff repeatedly said that it was not staffed sufficiently to
              monitor the implementation of contracts." It would obviously be impos-
              sible for the small procurement staff to monitor the utilization of over 100
              contractors once they are engaged, in addition to performing all of their
              other duties. In addition, since the contractors provide services and work
              products directly to the Radio and TV Marti Programs and News Depart-


OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   59 .

                                                            UNCLASSIFIED
                                           UNCLASSIFIED



           ments, it is the responsibility of these department managers to ensure that
           the vendors are providing the services they were contracted for, and are
           being utilized appropriately. The contract technical oversight personnel
           (AR/COs, etc.) should be from the OCB Radio and TV departments, rather
           than from the supporting Office of Administration.

       •   Further, the fact that the small OCB procurement staff must produce
           thousands of pages of documents annually would help put into perspective
           some of the "irregularities" noted in the report. In fact, only a few weeks
           prior to the OIG review, there was a similar review conducted by the IBB
           Contracting Office of 2,750 pages of requisitions, purchase orders, and
           invoices processed by OCB contracting personnel. Upon completion of
           this review, the IBB Senior Procurement Executive noted in his May 1,
           2002 report that "M/CON did not find any serious procurement "deficien-
           cies" in the records that were reviewed that would suggest fraud, waste,
           abuse, favoritism, irregular pricing, unauthorized procurements, or unautho-
           rized commitments of BBG/IBB funds, or any negligence or incompetence
           by OCB personnel and/or POV contractors." Unfortunately, this review
           and its conclusions are not mentioned in the OIG report until page 30.
           Again, to add perspective and balance to the report, this IBB review, and its
           results, conducted immediately prior to the OIG review, should be refer-
           enced much earlier in the report, including in the Executive Summary.

       •   In fact, many of the issues dealt with in the OIG report were already
           covered in the preceding IBB review, and corrective measures were or are
           now being implemented. However, the corrective measures were not yet
           implemented in the time frame of the documents reviewed by the OIG. For
           example, of the 17 bullets with "irregularities" noted in the back of the
           OIG report, the vast majority involves questions on the payment rate used,
           as compared to the rate schedules contained in the IBB Contracting for
           Talent Handbook. This was an issue that was dealt with extensively in the
           above referenced M/CON report issued on May 1, 2002. In the report, the
           IBB Senior Procurement Executive recommended that in order to ensure
           that all POV rates stated in OCB Purchase Orders and Purchase Order
           Modifications are the correct rates, that in the future, the contracting officer
           who signs and awards a purchase order or purchase order modification,
           initial next to the rate. This will show that the contracting officer has
           personally validated the accuracy of the POV rate stated on the requisition
           with the correct rate that is listed in the IBB Contracting for Talent Hand-
           book. It should be noted that this change was implemented after May 1,
           while a majority (or all) of the documents reviewed by the OIG were dated


60 .        OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                           UNCLASSIFIED
                                                            UNCLASSIFIED



              prior to May 1. Therefore, this is another instance where steps have been
              taken to improve procedures, and avoid many of the "irregularities" noted
              in the report.

Specific Procurement Comments

       •      On page 2 of the draft, in the Executive Summary, (and on page 10), the
              report states that "there were 163 full-time government employees working
              in Miami and 200 contractors." It should be noted that the number of
              contractors cited (200) includes contractors who were used only one or two
              times, or are used once per week, once per month, etc. So it is misleading
              to state that there were 163 government employees and 200 contractors,
              without any further explanation. It implies to the reader that there are 200
              contractors working side by side with 163 government employees on a daily
              basis, which is definitely not the case.

"OCB Was Not Following Government Contracting Regulations"

       •      On page 20, the report states that the "OIG found that policies and proce-
              dures used in contracting with talent vendors, for the most part, were not in
              accordance with government procurement requirements, including those in
              the IBB Talent Handbook." We strongly disagree with this wording, as it
              implies that most OCB contracting actions are not in accordance with
              government and IBB requirements, which is not the case, and is also not
              supported by the limited number of examples of irregularities that were
              actually found during the OIG's audit.

              Again, this statement in the OIG report stands in contrast to the statement
              of the IBB Senior Procurement Executive (in the above referenced May 1,
              2002 report issued after their thorough review of OCB procurement ac-
              tions) that "M/CON did not find any serious procurement deficiencies."
              While there were some "shortcomings" identified, corrective actions were
              taken to avoid these shortcomings in the future. However, it is an unwar-
              ranted leap and mischaracterization, to suggest that, for the most part,
              policies and procedures "were not in accordance with government procure-
              ment requirements." One basis the OIG report cited for this conclusion is
              that "OCB was not adequately competing talent vendor contracts." While
              there may be some additional avenues that OCB could explore for promot-
              ing competition (and we plan to do so), even the report acknowledges on
              page 21 that "although OCB was meeting the minimum standards for
              competing its talent contractor needs, its actions were not yielding measur-



OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   61 .

                                                            UNCLASSIFIED
                                              UNCLASSIFIED



              able results." It is one thing to recommend that additional competition
              options be examined, but it is not accurate to state that OCB is not operat-
              ing in accordance with requirements. It should be noted that in the area of
              competition, OCB is utilizing the government's main competition vehicle
              (FBO), as well as posting the requirements for talent contractors in the
              lobby of the OCB Headquarters building. OCB believes that it has taken
              all appropriate measures to ensure full compliance with all procurement
              rules and regulations, and will continue to require contracting officers to
              closely monitor all procurement actions to assure that this is the case.

              IBB herein specifically requests that the text "for the most part" referred to
              above, be replaced with the words "in some instances" on page 20 of the
              Draft Report, and that an additional sentence be added to this paragraph, so
              that this revised paragraph on page 20 will then read as follows:
                "The OIG found that policies and procedures used in contracting with
              talent vendors, in some instances, were not in accordance with govern-
              ment procurement requirements, including those in the IBB Talent
              Handbook. However, the OIG also acknowledges that if the recom-
              mendations that were made in IBB-M/CON's May 1, 2002, memoran-
              dum to OCB/A (i.e., such as the OCB's Contracting Officer's placing
              his/her initials on each POV contract to document his/her validation
              of the accuracy of the rates being paid to the POV contractors are in
              accordance with (IAW) the POV Talent Handbook, etc.) are consis-
              tently implemented by OCB, then most of the shortcomings identified
              in this Draft Report will not reoccur in the future."
       "Inequitable Treatment of Talent Contractors"

          •   On page 27, the report states that "perceived inequities in the contractor
              rate cuts have led to vendor and employee dissatisfaction and legal action
              by at least two of the contractors." It should be noted in the report that the
              issue of the rate reductions and legal action brought by two of the vendors
              has been thoroughly reviewed by IBB's Senior Procurement Executive who
              found no basis for the two legal claims.

              As to the general issue of rate reductions in reaction to a budget shortfall,
              the OCB Office of Administration will exercise extreme caution and seek
              guidance from the IBB Office of Contracts prior to the initiation of any
              contract modifications for rate reductions. As to the issue of "altering"
              invoices, the OCB Office of Administration has reissued guidance to all
              approving officials as to what constitutes a correctly submitted invoice. In
              the future, invoices will be returned to the vendor for correction if any

62 .           OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                              UNCLASSIFIED
                                                            UNCLASSIFIED



              information is lacking or changes need to be made. Under no circum-
              stances will an invoice be altered.

              Also on page 27, $50,000 was reallocated from the Information Center
              budget rather than the $75,000 stated.

Responses to Procurement Recommendations
       Recommendation 5: The Office of Cuba Broadcasting, in consulta-
       tion with the International Broadcasting Bureau's Office of Contracts,
       should develop and implement a detailed competition plan that uses
       all of its various options to expand competition for talent contractors.
IBB Response: The Office of Cuba Broadcasting (OCB) concurs with Recom-
mendation 5, to the extent practicable. Although we are utilizing the main govern-
ment competition vehicle (FBO), as well as posting all of the OCB requirements
for talent contractors in the lobby of the OCB Headquarters, OCB will continue to
explore other avenues to increase competition, in consultation with the IBB Office
of Contracts, including the possibility of publicizing announcements on the IBB
web page, and advertising in trade publications, and Spanish language newspapers,
(within budgetary constraints). However, it should be noted that in some subject
matter areas, there are only a limited number of people with a high level of work-
ing knowledge of Cuba and its people, which may limit competition. Also, in many
cases, it is OCB's "listening audience" who determines the need to repetitively use
certain POV contractors due to their popularity.
       Recommendation 6: The Office of Cuba Broadcasting should direct
       contracting personnel to review all talent contracts to ensure that they
       meet provisions of the Federal Acquisition Regulation and the Inter-
       national Broadcasting Bureau's procurement regulations concerning
       service contracts, terminating and recompeting those contracts that
       do not meet those provisions.
IBB Response: The Office of Cuba Broadcasting (OCB) concurs with Recom-
mendation 6. The OCB Director of Administration will issue a memorandum to all
OCB contracting personnel requiring a contracting officer's initials on each requisi-
tion, attesting to the fact that the contracting officer has personally conducted a
review of the requisition, and that the requisition meets the provisions of the FAR,
before any further processing. Although this has been the informal procedure for
some time, the Director of Administration will now formalize this process. OCB's
Chief of Procurement will also immediately initiate action to review all FY-2003
requisitions to ensure that they meet the provisions of the FAR and IBB regulations
(including the Talent Handbook and Manual of Operations), particularly where a


OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   63 .

                                                            UNCLASSIFIED
                                               UNCLASSIFIED



       vendor's use might suggest the appearance of a personal services contract. It
       should be noted that the Office of Administration has twice distributed to all
       managers the May 20, 2002 IBB Memorandum - Guidelines for POV Talent Vendor
       Contracts (once in May when it first came out, and again on September 23, under
       Dr. Lew's signature). Nonetheless, the Office of Administration will hold meetings
       with all key program managers to fully brief them on these guidelines.
          Recommendation 7: The Office of Cuba Broadcasting should for-
          mally assign to its supervisory program personnel this responsibility
          for contractor oversight and require those designated to attend a ba-
          sic course for contracting officer's representatives to ensure proper
          oversight of service contracts.
       IBB Response: The Office of Cuba Broadcasting (OCB) concurs with Recom-
       mendation 7. As indicated earlier, it is impossible for the small OCB contracting
       staff to monitor the utilization of contractors in each department. Further, it is the
       department manager's responsibility to monitor the work and services that are
       performed for that department by vendors, to ensure that the vendors are being
       utilized appropriately, and that the services provided by the vendor are in accor-
       dance with the requisition initiated and requested by that department. OCB/A will
       coordinate with the IBB Office of Contracts within 30 calendar days of the OIG's
       issuance of the final version of this Report (or by January 31, 2003 at the latest) to
       identify the appropriate training course(s) on monitoring of Contractor perfor-
       mance and for ensuring proper oversight of service contracts, and OCB will sched-
       ule its supervisory program personnel who have such Contractor oversight respon-
       sibility to take this formal training during FY-2003 to the extent that such training
       funds are available. If possible, OCB will have such Contractor oversight training
       conducted at OCB Headquarters to minimize training costs.
          Recommendation 8: The Office of Cuba Broadcasting should estab-
          lish and implement a standard operating procedure to ensure that
          modifications to talent vendor contracts are handled in accordance
          with the Federal Acquisition Regulation and that justifications for
          such modifications are fully documented in the official procurement
          files.
       IBB Response: The Office of Cuba Broadcasting (OCB) concurs with Recom-
       mendation 8. The OCB Director of Administration has recently reminded all OCB
       employees via E-mail that any actions affecting contracts with vendors, or any
       communications with vendors about such actions (including modifications to




64 .            OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                               UNCLASSIFIED
                                                            UNCLASSIFIED



contract terms, etc.), can only be made by the OCB contracting officers. The OCB
Office of Administration has always required that requests for contract modifica-
tions be made in writing to the contracting officer. Effective immediately, the OCB
Office of Administration will return such requests for modifications to the request-
ing office without further action; if full, written justification supporting the action
is not furnished to the contracting officer.
       Recommendation 9: The Office of Cuba Broadcasting's Director of
       Administration should ensure that the identified purchase order defi-
       ciencies are corrected and a quality assurance plan is developed and
       implemented, including regular spot checks by the Office of Cuba
       Broadcasting procurement chief, to ensure that procurement actions
       are handled in accordance with legal and regulatory requirements.
IBB Response: The Office of Cuba Broadcasting (OCB) concurs with Recom-
mendation 9. The OCB Director of Administration has directed the Chief of
Procurement to immediately conduct an analysis of the individual purchase order
deficiencies noted in Appendix C of the OIG report, and will provide the OIG with
a detailed written analysis of findings, and corrective actions taken, once the
research is completed.

The OCB Director of Administration will further instruct the OCB Procurement
Chief to routinely review all procurement actions above $2,500 for both Radio and
TV Marti, to ensure that they are in compliance with all IBB and FAR require-
ments. Performance of such FAR compliance and quality reviews on OCB pro-
curement actions will be included as a specific requirement in the elements and
standards of the OCB Chief of Procurement's annual Performance Appraisal
Report.

As noted earlier however, corrective action has already been taken to avoid many
of the noted deficiencies in the future. Most of the deficiencies concerned the
payment rate used, and as a result of the IBB's review of the recommendations
(which preceded the OIG review), we now have the contracting officer initial the
payment rate to specifically show that it has been reviewed and validated.
       Recommendation 10: The Office of Cuba Broadcasting should move
       forward with its plans to fill the chief of staff position and complete
       action for the selection of a Radio Marti director.
IBB Response: The Office of Cuba Broadcasting (OCB) concurs with Recom-
mendation 10, and that the Director operated without some important management
personnel key in providing him necessary guidance and assistance. The Director
has moved to remedy this situation. On August 12, 2002, a new Chief of Staff


OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003   65 .

                                                            UNCLASSIFIED
                                              UNCLASSIFIED



       began to serve in that capacity at OCB. On October 17, 2002, a new Acting
       Director of Radio Marti was announced and began to serve in that capacity.




66 .           OIG Report No. IBO-A-03-01, Review of the Effectiveness and Implementation of Office of Cuba Broadcasting’s New Program Initiatives – January 2003


                                              UNCLASSIFIED
UNCLASSIFIED




UNCLASSIFIED
